/

!

A-16

k.

J

Archive;:

{In Archive} Re: Edited Plea Agreement 3
Melissa Day to: Morrissey, Kit R. (USAILS)
This message is being viewed in an archive.

08/05/2013 11:43 AM

Okay. Thanks.
"Morrissey, Kit R. (USAILS)"
From:
To:
Date:
Subject:

Yes, as to parents and possibly exten...

08/05/2013 11:42:28 AM

"Morrissey, Kit R. (USAILS)'1 <Kit.Morrissey@usdoj.gov>
"'Melissa_Day@fd.org'" <Melissa Day@fd.org>,
08/05/2013 11:42 AM
Re: Edited Plea Agreement

Yes, as to parents and possibly

extended family.

......... Original Message .........
From: Melissa Day [mailto :Melissa_Day@f(i.org]

Sent: Monday, August 05, 2013 12:34 PM Eastern Standard Time
To: Morrissey, Kit R. (USAILS)
Subject: Re: Edited Plea Agreement
Kit,
I've been meeting
message. At this
I've checked with
that means that I
trip. However, I

with other clients, so I didn't get your voicemail
point, I can't see Mr. Staszak until he arrives here
the USM. He should be here about 1:00. Unfortunately
won't be able to call this off in time to save you a
am hopeful it will proceed as planned.

I have one question, ysu_man£ioned foregoing charges against those who
da^y-ULat Include'any extended^
family, parents or friends?^ I don't know if it would make a difference,
but it might be worth knowing for when I speak to him.
aided him while on fugitive status

Thanks,
Melissa.

From:
To:
Cc:
Date:
Subj ect:

"Morrissey, Kit R. (USAILS)1' <Kit .Morrissey@usdoj .gov>
"melissa_day@fd.org" <melissa_day@fd.org>,
"Scott, Angela (USAILS)'■ <Angela. Scott@usdoj . gov>
08/05/2013 11:18 AM
Edited Plea Agreement

Melissa
I apologize for this last minute change, but I forgot the mandatory
sex offender registration language in the plea agreement. The plea with
the added language is attached,
It’ is found in Part IV, which makes the
forfeiture section Part V. Part VI becomes the "No matters are in dispute"
section. In case you did not get my VMM this morning, I have spoken with
Agent Krug regarding the forfeiture of the Jeep and in light of the other
concessions the government has made in this case, the government will not

forego this forfeiture. Mr. Staszak must understand that we will stop
pursuing the case against him for tampering with a witness and those aiding
him while on fugitive status, including attempts to influence/tamper with
witnesses. Those are concessions well above the concessions made as to
sentencing in this case.
If any of the above becomes a "deal breaker," please contact me on
my cell phone to save us the trip, I sincerely hope that Mr. Staszak will
see the wisdom in taking this offer.
Sincerely,
Kit Morrissey
^[attachment "Non-cooperating Plea Agreement He.wpd" deleted by Melissa
Day/ILSP/07/FDO]

A-17

UNITED STATES OF AMERICA
SOUTHERN DISTRICT OF ILLINOIS

1
2
3

UNITED STATES OF AMERICA,

4

Plaintiff,

)
)
)

) No. 4:12-cr-40064-J PG-1

V.
5
MATTHEW LEE STASZAK,
6
Defendant.

)
)
)
)

7
8

TRANSCRIPT OF PLEA PROCEEDINGS

9

BEFORE THE HONORABLE 3. PHIL GILBERT
UNITED STATES DISTRICT JUDGE

10
August 5, 2013
11
12

APPEARANCES:
FOR PLAINTIFF:

13

OFFICE OF THE U.S. ATTORNEY
9 Executive Drive, Suite 300
Fairview Heights, IL 62208
(618) 628-3700
Kit.Morrissey@usdoj.gov
Angela.Scott@usdoj.gov

14
15
16
17

Kit R. Morrissey, Esq.
Angela Scott, Esq.

FOR DEFENDANT:

18
19

Melissa A. Day, Esq.
FEDERAL PUBLIC DEFENDER
401 west Main street, PO
Benton, Illinois 62812
(618) 435-2552
Melissa_Day@fd.org

box

1075

20
REPORTED BY:
21

22
23
24

Christine A. Dohack, RMR, CRR
Official Court Reporter
301 west Main street
Benton, Illinois 62812
(618) 439-7725
Ch ristine_Dohack@i1sd.uscou rts.gov

Proceedings recorded by mechanical stenography, produced
by computer-aided transcription.

25

Page

1

l

(Proceedings began in open court at 1:59 p.m.)

2

THE CLERK:

United States of America versus

3

Matthew Lee staszak, Case No. 12-40064.

4

set for change of plea.

5

Are all the parties ready?

6

MS. MORRISSEY:

This matter is

Good afternoon, Your Honor.

7

Morrissey and Angela Scott, Assistant united states

8

Attorneys,

9
10

Kit

we are ready to proceed.

MS. DAY:

Melissa Day appearing on behalf of

Matthew staszak, who appears in person, Your Honor.

11

THE COURT:

okay.

Let the record show that

12

defendant Matthew staszak is present in court with counsel

13

Miss Day.

14

behalf of the Government.

15

Court for change of plea.

16
17

20

This matter comes before this

Miss Day, will you and your client please approach
the podium.

18
19

Miss Morrissey and Miss Scott are present on

Mr. Staszak, please raise your right hand to be
sworn.
(Defendant sworn by clerk.)

21

MATTHEW LEE STASZAK,

22

having been first duly sworn, was examined and testifies

23

as follows:

24
25

EXAMINATION
BY THE COURT:

Page

2

Do you understand you are now under oath and

l

Q.

2

anything that you say that is false or untrue can later be

3

used against you in another prosecution perjury or making

4

a false statement?

5

A.

I do, Your Honor.

6

Q.

State your full name for the record.

7

A.

Matthew Lee staszak.

8

Q.

Your age?

9

A.

30 years old, Your Honor.

10

Q.

Your level of education.

ll

A.

High school, part college.

12

Q.

Can you read and understand the English language?

13

A.

I can, Your Honor.

14

Q.

Have you been provided a copy of the second

15

superceding indictment, that is, the written charges

16

against you, and have you discussed those charges and the

17

case in general with your attorney Miss Day?

18

A.

I have, Your Honor.

19

Q.

Are you fully satisfied with the counsel,

20

representation and advice given to you in this case by

21

Miss Day, your attorney?

22

A.

I am, Your Honor.

23

Q.

It's been alleged in the second superceding

24

indictment in count one that you committed the offense of

25

sexual exploitation of a minor, in that between on or

Page

3

l

about June 1st, 2011, and on or about July 31st, 2011, in

2

Williamson County, within this district, you did knowingly

3

employ, use, persuade, induce, entice, and coerce a minor,

4

KG, to engage in sexually explicit conduct for the purpose

5

of producing a visual depiction of such conduct, and did

6

attempt to do so, which visual depiction was produced

7

using material that had been mailed, shipped, and

8

transported in interstate commerce in violation of federal

9

law.
Do you understand what you are charged with in

10
li

count one, being the sexual exploitation of a minor?

12

A.

I do.

13

Q.

Count two alleges you committed the offense of

14

travel with intent to engage in illicit sexual conduct in

15

that on or about March 22nd, 2011, in Williamson county,

16

within this district and the state of North Carolina, you

17

did knowingly travel in interstate commerce from North

18

Carolina to Williamson County, Illinois, for the purpose

19

of engaging in illicit sexual conduct, that being the

20

sexual act with a person under the age of 18 years of age,

21

in violation of federal law.

22

Do you understand what you are charged with in

23

count two?

24

A.

I do, Your Honor.

25

Q.

Count three charges you with the same offense,

Page

4

on

l

travel with intent to engage in illicit sexual conduct

2

or about May 29th, 2011, in Williamson County, within this

3

district and the State of North Carolina.

f

Do you understand what you are charged with in

4
5

count three?

6

A.

I do, Your Honor.

7

Q.

Count four alleges you committed the offense of

8

failure to appear, in that on or about October 4, 2012, in

9

Franklin County, within this district, you, having been

10

charged with violations of 18 use, sections 2251(a) and

11

(e), and 2423(b), being felony offenses, and having been

12

released pursuant to chapter 207 of Title 18 of united

13

states code in connection with the aforementioned criminal

14

charges for appearance before Magistrate Judge Philip M.

15

Frazier at 11:30 a.m. on October 4, 2012, for an initial

16

appearance on a superceding indictment in this — in Case

17

No. 12-40064, entitled united states versus Matthew

18

staszak, that did you knowingly and willfully fail to

19

appear as required, all in violation of federal law.
Do you understand what you are charged with in

20
21

count four?

22

A.

I do, Your Honor.

23

Q.

There's also a forfeiture provision that states

24

that as a result of the commission of the offenses charged

25

in counts one and two of the second superceding

Page

5

l

indictment, defendant Matthew staszak shall forfeit to the

2

united States pursuant to federal law your interest in any

3

property used or intended to be used to commit or to

4

promote the commission of such offense or any property

5

traceable to such property.

6

The property to be forfeited includes but is not

7

limited to a 2007 Jeep Grand Cherokee and all accessories,

8

attachments and components therein and thereon, and a

9

Verizon cellular telephone, model Droid x2.

10

Do you understand that, as a result of the

11

commission of the offense charged in count three of the

12

second superceding indictment, the defendant Matthew

13

staszak shall forfeit to the United States pursuant to

14

federal law your interest in any property used or intended

15

to be used to commit or facilitate the commission of the

16

offense, the property to be forwarded includes and not

17

limited to a Verizon cellular phone model Droid X2 bearing

18

a — I guess a different serial number — yeah, the first

19

one has a serial number sJUG-6250.

20

SJUG-6250.

21

the other — the same cellular is for the forfeiture in

22

counts one and two.

23

This also is

That's for the forfeiture in count three, and

Do you understand the nature of the allegations

24

against you in counts one through four, plus the

25

forfeiture allegations?

Page

6

l

A.

Yes, sir, Your Honor.

2

Q-

The possible penalties that could be imposed upon

3

a count one, being the sexual exploitation of a minor, the

4

maximum penalty can be imposed is a term of imprisonment

5

of not less than 15 years and up to 30 years, a fine of up

6

to $250,000, or both, and a term of supervised release of

7

not less than five years, up to life.

8
9

counts two and three that charge you with travel
with intent to engage in illicit sexual conduct, the

10

maximum penalty that can be imposed for each of counts two

11

and three is a term of imprisonment of up to 30 years, a

12

fine of up to $250,000, or both, and a term of supervised

13

release of not less than five years, up to life.

14

And on count four, the failure to appear, the

15

maximum penalty that can be imposed for count four is a

16

term of imprisonment of up to ten years, said term to run

17

consecutively to any sentence this court imposes on counts

18

one through three, plus the fine of up to $250,000, or

19

both, and a term of supervised release of three years.

20

There is also a special assessment on each count

21

of conviction, which means if you plead guilty to all four

22

counts there will be a 400-dollar special assessment.

23

And the effect of supervised release means that,

24

once you are released from prison, if you violate your

25

terms of supervised release you can be revoked and sent

Page

7

1

back to prison.

2

Do you understand the possible penalties that

3

could be imposed upon a plea or a finding of guilty on

4

each of these counts?

5

A.

Yes, sir, Your Honor, I do.

6

Q.

Okay.

I'm going to explain your rights to you:

7

You are innocent until proven guilty;

8

You need to be proven guilty beyond a reasonable

9

doubt;

10

You have a right to a jury trial;

li

You have a right to confront your accusers;

12

You have a right to bring witnesses in to testify

13

on your own behalf;
You have a right against self-incrimination,

14
15

meaning you do not need to testify unless you choose to do

16

so;

17
18

You have a right to have an attorney with you at
each stage of these proceedings;

19

And you have here represented by counsel Miss Day.

20

Do you understand the rights I have just explained

21

to you?

22

A.

Yes, sir, I do.

23

Q.

it's my understanding you wish to plead guilty to

24

all four counts in this second superceding indictment; is

25

that correct?

Page

8

l

A.

That is correct, Your Honor.

2

Q.

Have any threats or promises been made to you in

3

an effort to induce you to plead guilty?

4

A.

Not that I know of, Your Honor.

5

Q.

is it your intent to plead guilty as your own free

6

and voluntary act?

7

your own free and voluntary act?

8

A.

Yes, Your Honor.

9

Q.

You understand that you do not have to plead

(Pause.)

Are you pleading guilty as

10

guilty, that you can persist in a plea of not guilty and

11

have a trial, but if you change your plea from not guilty

12

to guilty there will be no trial and you will be sentenced

13

as if you were found guilty by a jury.

14

that?

15

A.

I do, Your Honor.

16

Q.

It's my understanding that you, through your

17

attorney and the Government, have entered into a plea

18

agreement regarding this case; is that correct?

19

A.

That is correct, Your Honor,

20

Q.

is this your signature to page 14 of this plea

21

agreement?

22

A.

That is my signature, Your Honor.

23

Q.

Did you read and review and go over this document

24

with your attorney before you signed it?

25

A.

Yes, we did, Your Honor.

Do you understand

Mm-hmm.

Page

9

understand that this is an agreement between

l

Q.

2

you and your attorney and the Government and this court is

3

not bound by this plea agreement.

4

A.

I do now, Your Honor.

5

Q.

what do you mean, you do now?

6

that before?

7

A.

I didn't know that, Your Honor, no.

8

Q.

You — this plea agreement particularly states

9

that I am not bound by this.

you

Do you understand that?

You didn't know

You understand that —

10

A.

Yes, sir.

ll

Q.

And is it your intention to plead guilty the

12

result of negotiations that you and your attorney had with

13

the Government that resulted in the creation and execution

14

of this plea agreement?

15

A.

16
17

Yes, Your Honor.
THE COURT:

Miss Morrissey, the essential terms of

the plea agreement.

18

MS. MORRISSEY:

19

THE COURT:

Yes, Your Honor.

Can you speak into a mic?

20

a mic you can turn on?

21

MS. MORRISSEY:

22

THE COURT:

23

MS. MORRISSEY:

Yes.

Do you have

Is that better?

Yes.

Your Honor, the essential terms of

24

the plea agreement are that in exchange for the

25

defendant's plea of guilty to the indictment, counts one

Page 10

l

through four, and the defendant's forfeiture of the items

2

named in the second superceding indictment, the United

3

states will agree, and the defendant agree, to make a

4

joint recommendation as to sentencing in this case of a

5

sentence of 300 months imprisonment.

6

below, Your Honor, the recommended guideline sentence by,

7

by five years, and it also takes into account the

8

consecutive nature of count four.

That sentence is

9

So, in other words, the parties agree to recommend

10

to this court a final sentence of 25 years imprisonment on

11

all counts in the indictment, along with the forfeiture of

12

the property named therein.

13

The defendant also agrees to waive rights, any

14

right to appeal, any right to collateral attack.

15

other standard appeal waiver provisions apply, Your Honor.

16

There is a section at paragraph — or part four of

17

the plea agreement that just explains to Mr. staszak that,

18

under state and federal law, he will be required, there is

19

mandatory registration for him now as a sex offender.

20

that is set forth in part four, Your Honor.

21
22

And

Those are the essential terms of the plea
agreement.

23

THE COURT:

24

MS. MORRISSEY:

25

The

Okay,

is there a waiver of appeal?

There is, Your Honor.

All the

waivers appear in count — part three of the plea

page 11

1

agreement.

2

Q.

3

essential terms of your plea agreement, as you understand

4

it?

(BY THE

court)

5

THE WITNESS:

6

MS. DAY:

okay.

Mr. Staszak, are those the

Paragraph 30?

The whole plea agreement, what she just

7

sai d.

8

A.

That's correct, your Honor.

9

Q.

(BY THE COURT)

okay.

Yes.

Did you and your attorney

10

go over the waiver of appeal rights and collateral attack

11

rights as contained in your plea agreement?

12

A.

We did, Your Honor.

13

Q.

Do you have any questions regarding those waivers?

14

A.

Not at this time, Your Honor,

15

Q.

well, it's either this time —

16

A.

No, sir, Your Honor.

17

Q.

Okay.

18

you to turn to page nine of your plea agreement, paragraph

19

11.

20

agree that a sentence of 25 years imprisonment is

21

reasonable — in fact, this is all in bold — is

22

reasonable under the facts and circumstances of the case

23

and the sentencing factors that the Court must consider in

24

18 use 3553(a), and the parties will make such a

25

recommendation.

Now, I — on page nine of your — I want

And Miss Morrissey referenced this, that parties

Page 12

The next sentence says, the agreement of the

l
2

parties is not binding upon the court or the united states

3

Probation office and the court may impose any sentence

4

authorized by law.
Do you understand that?

5

I do — yes, sir, Your Honor.

I do.

6

A.

I do, sir.

7

Q.

And you also understand about the mandatory sex

8

offender registration?

9

A.

Yes, sir, I do.

10

Q.

And the forfeiture provision?

11

A.

Yes, Your Honor, I do.

12

Q.

Okay.

13

regarding the, the plea agreement that you entered into?

14

A.

I do not, Your Honor.

15

Q.

okay.

16

federal sentencing guidelines and the 3553(a) factors that

17

may apply to your sentencing?

18

A.

Yes, Your Honor, we have.

19

Q.

Do you understand the guidelines are now advisory

20

and the court will consider those guidelines along with

21

the 3553(a) factors and any mandatory mini mums — and

22

there is a mandatory minimum here — when it sentences

23

you.

24

A.

I do, Your Honor.

25

Q.

And if I sentence you to a term of imprisonment

Again, do you have any questions at all

Have you and your attorney talked about the

Do you understand that?
Yes.

Page 13

l

that, that is, of course if it's below the 25 years I'm

2

sure you wouldn't appeal, but if it's even above the 25

3

years, you're waiving your right to appeal,

4

MS. DAY:

is that —

He is, with the limitation — the

5

standard limitations that apply to changes that might be

6

made in the law that applies to the 25-year sentence in

7

this case, not to the guideline sentence.

8

THE COURT:

Okay.

9

Q.

(BY THE COURT)

10

A.

I do, Your Honor.

11

Q.

Okay.

12

that you do not understand?

13

A.

14
15
16

All right.

But you understand that?
Yes.

Anything that I have stated to you so far

I understand everything, Your Honor.
THE COURT:

What would be the factual basis for

the acceptance of this plea?
MS. MORRISSEY:

Yes, Your Honor,

if the case were

17

called to trial, the united states would expect its

18

evidence to establish beyond a reasonable doubt that from

19

approximately February of 2011, continuing through May

20

29th, 2012, the defendant who was born on December 15th,

21

1982, engaged in a sexual relationship with KG — whose

22

being identified by her initials — a person under the age

23

of 17, with a date of birth of May 29th, 1995.

24
25

On or about the dates named in the second
superceding indictment, Mr. Staszak resided in North

Page 14

l

Carolina and KG resided in the Southern District of

2

Illinois.

3

The evidence would further establish that on or

4

about March 22nd, 2011, Mr. staszak traveled interstate

5

from North Carolina to Williamson County, Illinois, within

6

the Southern District of Illinois, for the purpose of

7

engaging in illicit sexual conduct, that is, sexual

8

intercourse, including genital to genital intercourse with

9

KG, who was then 15, and the two did engage in such

10

conduct.

That is the allegation in count two, Your Honor.

11

Further, that on or about May 29th, 2011, on KG's

12

16th birthday, Mr. staszak traveled interstate from North

13

Carolina to Williamson County, Illinois, within this

14

district, for the purpose of engaging in illicit sexual

15

conduct, that is, sexual intercourse involving genital to

16

genital intercourse, with KG, and the two did engage in

17

such conduct.

18

That is the allegation in count three, Your Honor.

19

Additionally, in or around June or July 2011, when

20

KG was 16, Mr. staszak used KG to take part in sexually

21

explicit conduct, that is, sexual intercourse, including

22

genital to genital intercourse, for the purpose of

23

producing a visual depiction of such conduct with his

24

Verizon cellular telephone, model Droid X2, bearing the

25

serial number set forth in the indictment.

And Mr.

Page 15

l

staszak did produce such a visual depiction that he and KG

2

watched after it was produced.

3

The Verizon cellular telephone is not manufactured

4

in the state of Illinois and it would necessarily have had

5

to travel in interstate and/or foreign commerce to be

6

present in the state of Illinois, in our district, when

7

the visual depiction was created with it.

8

allegation in count one, Your Honor.

9

That is the

Finally, Your Honor, the evidence would establish

10

that on or about October the 4th, 2012, at 11:30 a.m., Mr.

11

Staszak was scheduled for an initial appearance on a

12

superceding indictment in this matter, united States

13

versus Matthew staszak, No. 12-40064, before Magistrate

14

Judge Philip M. Frazier, at the united states Courthouse

15

in Benton, within Franklin County, in the southern

16

district of Illinois.

17

pursuant to Chapter 207 of Title 18 pending trial on

18

charges in the same case for violations of Title 18 united

19

states code, Sections 2251(a) and (e) and Section 2423(b),

20

all felony offenses.

21

Mr. staszak was on pretrial release

Mr. staszak knowingly and willfully failed to

22

appear as required on that date, having removed an

23

electronic ankle monitoring device the night before, and

24

fled the location of his electronic monitoring, the home

25

of his father, for the purpose of avoiding prosecution.

Page 16

l

Mr. staszak remained a fugitive until his capture on June

2

2nd of this year.

3

Those would be substantially the facts united

4

states would expect to produce at a trial, Your Honor.

5

Q.

6

correct as to each count?

7

A.

Yes, sir, Your Honor, they are.

8

Q.

Okay.

9

count one of the second superceding indictment alleging

(BY

the

COURT)

Is the factual basis, Mr. staszak,

At this time I ask you how you plead to

10

you committed the offense of sexual exploitation of a

11

minor, guilty or not guilty?

12

A.

Guilty, Your Honor.

13

Q.

how

14

superceding indictment, those counts each charge you with

15

the offense of travel with intent to engage in illicit

16

sexual conduct, guilty or not guilty?

17

A.

Guilty, Your Honor.

18

Q.

how

19

appear as alleged in count four, guilty or not guilty?

20

A.

Guilty, Your Honor.

21

Q.

Have any threats or promises been made to you in

22

an effort to induce you to plead guilty?

23

A.

No, sir, Your Honor, I have not.

24

Q.

Are you doing so as your own free and voluntary

25

act?

do you plead to counts two and three of the

do you plead to count four, the failure to

Page 17

1

A.

2

Yes, sir, I am.
THE COURT:

The Court finds that a factual basis

3

exists, that the defendant has knowingly and voluntarily

4

and competently pled guilty to counts one through four of

5

the second superseding indictment, and the court hereby

6

judges the defendant guilty of violating said offenses.

7

sentencing will be set for December 6th at 10:00.

8

A written presentence investigation report will be

9

prepared by Probation to assist me in sentencing you.

10

will have an opportunity to give information for that

11

report.

12

if you so choose.

You may have your attorney with you at the time,

13

Anything further, Miss Day?

14

MS. DAY:

15

the

16

MS. MORRISSEY:

17

the

18
19

you

COURT:

COURT:

No, Your Honor.
Anything further, Miss Morrissey?
No.

Thank you, Your Honor.

I assume that you'll be notifying the

victim of the sentencing?
MS. morrissey:

is that —

we will, Your Honor.

And they

20

were notified, the victim and her parents, of today's

21

hearing and elected not to be here today.

22

the

23

(Court adjourned at 2:20 p.m.)

COURT:

okay.

All right.

That will be all.

24
25

Page 18

1
2

REPORTER'S CERTIFICATE

I, Christine A. Dohack, Registered Merit Reporter

3

and certified Realtime Reporter in and for the united

4

states District court for the southern District of

5

Illinois, do hereby certify that I was present at and

6

reported in machine shorthand the proceedings in the

7

above-mentioned court; and that the foregoing transcript

8

is a true, correct, and complete transcript of the

9

electronic recording.

10

I further certify that I am not an attorney for,

11

nor employed by, nor related to any of the parties or

12

attorneys in this action, nor financially interested in

13

the action.

14

I further certify that this transcript contains

15

pages 1-19 and that this reporter takes no responsibility

16

for missing or damaged pages of this transcript when same

17

transcript is copied by any party other than this

18

reporter.

19
20

IN WITNESS WHEREOF, I have hereunto set my hand at
Benton, Illinois, this 28th day of July, 2014.

21
22

t/ChrCtttnesA. Vofaacb, KMU, C1Z1Z

23
24

Christine A. Dohack, RMR, CRR

25

Page 19

A-18

UNITED STATES OF AMERICA
SOUTHERN DISTRICT OF ILLINOIS

1
2
3

UNITED STATES OF AMERICA,

4

Pi ai nti ff,

)
)
)

) No. 4:12-cr-40064-J PG-1

V.
5
MATTHEW LEE STASZAK,
6
Defendant.

)
)
)
)

7
8

TRANSCRIPT OF SENTENCING PROCEEDINGS

9

BEFORE THE HONORABLE 3. PHIL GILBERT
UNITED STATES DISTRICT JUDGE

10
February 5, 2014
ll
12
APPEARANCES:
13
FOR PLAINTIFF:

Kit R. Morrissey, Esq.
OFFICE OF THE U.S. ATTORNEY
9 Executive Drive, Suite 300
Fairview Heights, IL 62208
(618) 628-3700
Kit.Morrissey@usdoj.gov

FOR DEFENDANT:

Melissa A. Day, Esq.
FEDERAL PUBLIC DEFENDER
401 West Main Street, PO Box 1075
Benton, Illinois 62812
(618) 435-2552
Melissa_Day@fd.org

REPORTED BY:

Christine A. Dohack, RMR, CRR
Official court Reporter
301 West Main street
Benton, Illinois 62812
(618) 439-7725
Christine_Dohack@i1sd.uscourts.gov

14
15
16
17
18
19

20
21

22
23
24

Proceedings recorded by mechanical stenography, produced
by computer-aided transcription.

25

Page

1

1
2

INDEX
PAGE

3
4
5

Statement by KG (victim)

8:9

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

Page

2

l

(Proceedings began in open court at 1:56 p.m.)

2

the clerk:

united states of America versus

3

Matthew Lee staszak, case No. 12-40064.

4

set for disposition.

5

Are all the parties ready?

6

MS. MORRISSEY:

This matter is

Good afternoon, Your Honor.

Kit

7

Morrissey, Assistant United states Attorney, on behalf of

8

the United states,

9

agents Patrick Parker and Mark Krug of the FBI.

10

THE COURT:

12

MS. DAY:

14

we're

ready to proceed, Your Honor.

11

13

with me at counsel table are case

Good afternoon.
Melissa Day appearing on behalf of the

Matthew staszak, who appears in person, Your Honor.
THE COURT:

Okay.

Let the record show that the

15

defendant Matthew Staszak is present in court with counsel

16

Miss Day.

17

Government.

18

sentencing.

Miss Morrissey is present on behalf of the
This matter comes before this Court for

19

Mr. staszak, will you please stand?

20

THE DEFENDANT:

21

the

COURT:

Yes, sir.

A written presentence investigation

22

report has been prepared by Probation to assist me in

23

sentencing you.

Have you received a copy of that report?

24

THE DEFENDANT:

25

THE COURT:

Yes, Your Honor, I have, sir.

Have you had an opportunity to read

Page

3

l

it?

2

the defendant:

3

THE COURT:

Yes, sir, I have.

Are there any errors, corrections,

4

alterations, or additions to the report which you wish to

5

make to it?

6

THE DEFENDANT:

7

THE COURT:

No, Your Honor, there is not.

Miss Day, does the defendant have any

8

objections to the report at this time that would affect

9

the advisory guideline range?

10

MS. DAY:

li

THE COURT:

12

Does the Government have any objections to the

13

report that would affect the advisory guideline range?

No, Your Honor, he does not.
Okay.

14

MS. MORRISSEY:

15

the

COURT:

You may be seated.

No objections, Your Honor.

There being no objections to the

16

probation officer's presentence investigation report, the

17

Court hereby adopts the presentence investigation report

18

and the findings contained therein as the findings of this

19

Court, including the finding that — and there's a

20

multiple-count grouping here on counts one, two, and

21

three, and then you have count four.

22

That the base level offense on count one of sexual

23

exploitation of a minor is 32.

24

characteristic enhancements because the offense involved

25

the sexual act or sexual contact, the offense is increased

There are specific offense

Page

4

l

by two levels.

2

involved the use of a interactive computer service for —

3

and then there is another two-level enhancement for

4

obstruction of justice, with an adjusted offense level of

5

38 on count one.

There's another two-level enhancement,

6

On count two, there is — with travel with intent

7

to engage in illicit sexual conduct, there is — the base

8

guideline offense is 24.

9

offense enhancements as the defendant influenced a minor

Again, there are some specific

10

to engage in sexual conduct, increased by two levels.

li

Because the offense involved the use of an interactive

12

computer service, the internet, another two-level

13

enhancement, and because the offense involved the

14

commission of a sex act or sexual contact, the offense,

15

again another two-level increase, for — and then a

16

two-level increase for obstruction of justice, with an

17

adjusted offense level on count two of 32.

18

with count three, travel with intent to engage in

19

illicit sexual conduct,» the base level offense is 24.

20

Again, there are several specific offense enhancements.

21

Because the defendant influenced a minor to engage in

22

sexual conduct, a two-level enhancement; another two-level

23

enhancement as the offense involved the interactive

24

computer service, the internet, as in the previous counts,

25

and — another two-level enhancement; and then because the

Page

5

l

offense involved the commission of a sex act or sexual

2

contact, another two-level enhancement; and again, the

3

obstruction of justice, two-level enhancement, rendering

4

adjusted offense level on count three of 32.
The multiple count adjustments on counts one, two,

5
6

and three, doing the mathematical factoring of the units,

7

there's two units enhancement, so there is a greater of an

8

adjusted offense level is 38.

9

to 40.

10

You increase the two levels

There is also a chapter four enhancement as the
The

li

conviction is a covered sex crime under 2B1.1.

12

defendant engaged in a pattern of activity involving

13

prohibited sexual conduct, therefore, the offense level is

14

increased five levels.

15

There is no acceptance of responsibility because

16

the defendant took off during the commission of his

17

prosecution here, rendering a total offense level of 45.

18

But those — again, the maximum is 43.

19

is a total — the total offense level for a guideline

20

application is 43.

21

lifetime advisory guideline range, however, there is a

22

statutory maximum on count one of five to 40 years; on

23

count two and three of up to 30 years; and on count four,

24

ten years consecutive to all other counts.

25

So there

The — which ordinarily would be a

(Off the record.)

Page 6

l
2

years, I mean.

3

30-year maximum.

4
5
6

Five to 30 years — yeah, five to 30

THE COURT:

Five to 30 years on count one.

There's a

The guideline provision on counts one, two, and
three is 360 months.
On count four, if imprisonment imposed, not more

7

than 120 months consecutive to the sentences imposed on

8

counts one, two, and three.

9
10
11
12
13

Supervised release range on count one of five
years to life and, on count four, of up to three years.
Fine range of 25,000 to $250,000, and a 100-dollar
special assessment on each count.
There's also a forfeiture of 2007 Jeep Grand

14

Cherokee and a Verizon cell phone, model Droid X2, and the

15

serial numbers are in the, in the documents.

16
17

Any objections to those specific guideline range
findings?

18

MS. MORRISSEY:

19

MS. DAY:

20

THE COURT:

no

objection, Your Honor.

No, Your Honor.
okay.

Does the Government have

21

anything to say or offer in aggravation or a

22

recommendation?

23

MS. MORRISSEY:

Your Honor, I have nothing say in

24

aggravation.

25

— the victim would like an opportunity to speak, Your

I do have a recommendation and I do want to

Page

7

1

Honor.

2
3

THE COURT:

okay, yes.

that right now.

4

MS. MORRISSEY:

5

THE COURT:

6

victim approach the podium.

7
8

is the victim — let's do

All right.

If the victim is here, would the

Please state your name and your age.

You can go

by initials, if you wish.

9

victim

10

KG:

KG, age 18.

Honorable Judge Gilbert, I want to thank you for

11

allowing me to speak today.

12

here, this is my chance to have a voice and to let you and

13

the court know how this impacted me personally and my

14

fami 1y.

As we all know why we are

15

The defendant began his relationship with me more

16

aggressively after my father had moved away and at a time

17

when my parents' marriage was falling apart.

18

that the defendant studied me and my family before he

19

targeted me.

20

brainwashed me to a certain extent.

21

his profession in the U.S. Navy and frightened me into

22

believing he was an investigator with access to

23

confidential information.

24
25

I believe

He manipulated me, controlled me, and
He lied to me about

I became sick with chronic stomach problems
because of the manipulation and overbearing control the

Page

8

l

defendant had on me.

2

large amount of my time and money on doctor visits and

3

counseling sessions while the defendant had escaped and

4

went on with his life as if nothing happened.

The past two years, I have spent a

5

As a result of the defendant removing his

6

monitoring device and becoming a federal fugitive, I lost

7

focus of everything that should have been important in my

8

life, such as my education, my family, and career

9

opportunities.

I was always worried about who, who is

10

watching me and when the defendant was going to strike

11

again.

12

He was possessive over me.

He never wanted me to

13

speak to any other male besides him.

14

of thinking was, if he couldn't have me, then no one

15

could.

16

The defendant's way

My mother and stepfather witnessed a lot while I

17

was residing in Crestwood, Missouri,

18

defendant had escaped on October 4th, 2012.

19

that phone call, I began panicking and could not sleep.

20

That night, I watched out the window at the police cars

21

patrolling the house.

22

asleep until around 4:00 in the morning,

23

got to sleep, it was in my parents' bedroom because I

24

didn't feel safe in my own room downstairs.

25

At that time, the
when I got

I was so upset that I didn't fall
when I finally

I became very isolated and would not want to leave

Page

9

l

the house or go outside alone for the fear that I was

2

being watched.

3

the time I learned of his escape until several weeks

4

later, according to how long the defendant had been on the

5

run.

6

and stepfather convinced me to get a job in hopes that it

7

would help keep me occupied and take my mind off of the

8

escape.

9

emotional stress for many months.

I would sit and stare at the clock from

Finally, after a few months had passed, my mother

They both watched me suffer from physical and
I went from being a

10

happy, confident, cheerful, upbeat high school student who

11

participated in extracurricular activities to a depressed,

12

suspicious, angry, untrusting high school dropout.

13

I am here to attest to the character of the man

14

that the defendant showed me.

15

opposite of the character he showed his family and

16

friends.

17

defendant was a chaplain's assistant.

18

with all of the profanity, drinking, and the way he

19

conducted himself around me.

20

to me was not the way he portrayed himself to others.

21

I did not answer his phone calls right away, he would

22

become angry and give me ultimatums.

23

conversations with me about what would happen if our

24

relationship were to be found out.

25

would tell the authorities that he believed that I was 18

It was the complete

For over two years, I was unaware that the
He hid it very well

The way he portrayed himself
If

He would have

He told me that he

page 10

l

years old when really I was 15, 16, and 17 years old.

2

I also would like to add that even though the

3

defendant is attempting to show remorse and is being

4

apologetic, I cannot accept his feeble apology to me

5

because it is as thin as the paper it is written on.

6
7

I believe the defendant is only sorry that he was
caught.

8

Lastly, Matthew staszak...(Pause.)

9

THE COURT:

Take your time.

10

VICTIM KG:

I want you to know that even though

11

you assaulted me and harassed my family, I am standing

12

tall.

13

out of this courtroom today knowing that I have saved

14

countless young women from going through what I have gone

15

through.

16

My scars will heal and I will move on.

I will walk

You have deprived me of my teenage years, and I

17

gave you several opportunities to walk away from this and

18

make your life right, when I asked you over and over again

19

to leave me alone and forget about me.

20

DUe to your actions, you chose the position you

21

are in.

22

until you have fully accepted your part in this, I cannot.

23
24
25

I have hopes that one day I can forgive you.

But

Again, Your Honor, thank you for hearing me out
today.
THE COURT:

okay.

How are you doing today?

Page 11

l

VICTIM KG:

2

the

3

VICTIM KG:

Yeah.

4

THE COURT:

KG, I, first, want to tell you that

COURT:

I'm all right.

A 1ittle emotional.

And that's understandable.

5

you are not at fault for what happened here.

6

you to always believe that,

7

the age of consent, you are not at fault.

8
9

And I want

As someone that was not at

I do — would like to, would like to ask a couple
questions,

how

did this relationship start?

10

on Facebook, according to what I read in the

11

presentence —

12

victim

KG:

Did it start

Yeah, I was 15 years old.

I was a

13

sophomore in high school living in Hardin, Illinois.

14

defendant had added my sister on Facebook.

15

here today, I don't know if...

16

the

COURT:

17

sister's Facebook?

18

VICTIM KG:

The

she's actually

Well, how did the defendant get your

You have mutual friends, I guess?

19

He's from Southern Illinois, so are we.

20

recall, he mentioned that he had a car and that he could

21

come visit her or something,

22

odd, so she deleted him.

23
24
25

THE COURT:

From what I

she thought it was a little

Well, then how did you hook up with

him on Facebook?
VICTIM KG:

He then, he then added me to Facebook.

Page 12

COURT:

Why didn't you delete him?

l

the

2

victim

3

problem at that point.

KG:

I — I'm not sure.

I didn't see a

4

THE COURT:

Did you know he was an adult?

5

VICTIM KG:

I knew he was an adult.

6

I didn't

really know his actual age.

7

THE COURT:

okay.

8

VICTIM KG:

so, urn, then he asked me why my sister

9

Go ahead.

deleted him and that he wasn't, you know, he didn't do

10

anything wrong and stuff.

11

someone at that point so we talked very vaguely.

12

moved out of the state, to Georgia.

So he was, he was dating

13

THE COURT:

with who?

14

VICTIM KG:

With my family.

15

THE COURT:

Okay.

16

victim

KG:

Yeah.

Then I

And then I hadn't heard from

17

him for a few months, until December around his birthday.

18

Then we started talking on Facebook again and he wanted to

19

meet with me.

20

wanted to meet with me.

21

from Adam.

I actually called off one time that he
I was nervous.

I didn't know him

22

THE COURT:

was your mother aware of all this?

23

VICTIM KG:

Huh?

24

THE COURT:

was your mother aware of all this?

25

victim

KG:

Yes, she was, some of it.

Page IB

COURT:

Okay.

Go ahead.

l

the

2

victim

3

THE COURT:

wherever you want to stop.

4

VICTIM KG:

Okay.

KG:

where do you want me to stop?

So, I was living in Georgia.

5

It was, I guess it was around January or so, was the first

6

time that he wanted to meet up with me.

7

off.

Then I called it

And then we met sometime around early February.

8

THE COURT:

9

victim

KG:

And where did you meet?
we met in Columbia, South Carolina.

10

THE COURT:

11

victim

12

THE COURT:

Your mother drove you there?

13

VICTIM KG:

Mm-hmm.

14

THE COURT:

So, she was aware you were meeting Mr.

15

KG:

And how did you get there?
My mother drove me.

staszak?

16

victim

17

THE COURT:

KG:

She was, yes.
okay,

well, you don't need to — I

18

know this is very painful and I don't want you to suffer

19

any more than you have already suffered.

20

much.

21

VICTIM KG:

22

MS. MORRISSEY:

23

THE COURT:

24

MS. MORRISSEY:

25

Thank you very

Thank you.
Thank you, Your Honor.

Yes.
Your Honor, first of all, as the

Court is aware, the parties have reached an agreement, at

Page 14

l

least the parties have, on what they believe to be a

2

reasonable sentence in this case, and I believe the

3

parties have both taken into consideration all the factors

4

that led to these charges and — anything in aggravation

5

and mitigation in the case in coming to the conclusion

6

that a 25-year sentence was a just and reasonable

7

sentence.

8

make are with that agreed recommendation in, in place.

9

And so all these remarks, Your Honor, that I

Your Honor, the sentencing memorandum of Mr.

10

Staszak and his attorney paints a picture of a person

11

who's clearly very proud of his military career, and

12

rightfully so.

13

the military as a military — or as assistant chaplain.

14

He served his country.

15

Your Honor.

16

aggravating factor.

17

Mr. staszak has conducted himself well in
But I think that weighs both ways,

I think that can be both a mitigating and an

I've had the pleasure of knowing many military

18

people in my lifetime.

19

officers come from military backgrounds.

20

become Assistant united States Attorneys and Public

21

Defenders have military backgrounds.

22

favorite people happens to be a retired colonel from the

23

united states Army; he works in our office.

24

the things he has often said is that a military person, it

25

doesn't begin and end with their service in the military,

Many of our law enforcement
Many people that

And one of my most

And one of

Page 15

l

it's — there's a concept of the whole person, and a

2

concept of the whole person holding themselves to a higher

3

standard of service.

4

And I think here, Mr. staszak's actions are, the

5

crimes he committed stand in real juxtaposition to the

6

pride he takes in his military service.

7

troubling, for example, that he's so proud of the service

8

and the aid he gave to Haitians, yet he would abuse a

9

15-year-old teenager.

10

I find it

That doesn't, that doesn't jive.

And a person that takes great pride in service to

11

their country, I hope, has really — is sorrowful and

12

sorry for what he did to this young woman.

13

I note too, Your Honor, that in great

14

juxtaposition to his pride in his military service is the

15

fact that he couldn't obey a court order of a bond.

16

that he was absent from this court for about, I think it

17

was a total of about eight months, from October 3rd to

18

June the 2nd.

19

And

And, Your Honor, there is nothing worse in my

20

career than having to contact the victim the night I found

21

out that Mr. staszak escaped and to tell her and her

22

family that.

23

this case made great efforts to make sure that there were

24

extra patrols at both her — both of her parents' house;

25

her mother's house where she was living at that time, and

we made efforts — the police officers in

Page 16

l

her father's house where she later, later moved,

2

was a trying time for all of us, Your Honor.

3

— I know it was for this court.

4

Marshals Service.

5

bring this man to justice.

6

And that

it's, it's

I know it was for the

I know it was for us, as we sought to

This was a relationship, Your Honor.

It wasn't a

7

— although it's charged as three counts in the

8

indictment, it's clear from the PSR that this was a

9

relationship that carried on for about 14 months, right

10

after the defendant — or, I'm sorry, right after — well,

11

the defendant was 27 years of age when the relationship

12

began, and the victim was 15, and it basically ended at

13

the time of her 17th birthday.

14

It was brought to the attention of authorities,

15

Your Honor, by a young woman, a teenager herself, who was

16

living — whose family had taken in KG.

17

saw that KG was suffering from this relationship mentally

18

and physically, and she went to a police officer in the

19

small town of Hardin that she knew, and that's how it

20

eventually came to the attention of law enforcement.

That young woman

21

And, Your Honor, I think it's significant that Mr.

22

Staszak chose KG as a victim at a time when the family was

23

in turmoil.

24

Illinois and moved to Georgia; it was a place they had

25

always loved to vacation as a family; they had good

The mother and father had left the state of

page 17

l

memories there; and they were looking for a fresh start

2

there.

3

as KG said, her parents' marriage disintegrated and it was

4

soon that her father had to move back to Illinois to find

5

employment as he was unable to find employment in Georgia.

6

It didn't work out well for them at all.

They —

It was during that time, Your Honor, when KG and

7

her mother were there in Georgia alone that the

8

relationship went from a Facebook relationship to a

9

personal one.

It was a time when there was all this

10

family turmoil, family difficulties, her father was

11

absent, and of course her mother was not acting as a

12

mother should.

13

Her mother was not providing adequate protection

14

to her daughter,

15

to meet this man, that was clearly — it is clearly a

16

shocking act.

17

about it.

18

Honor, as I, as I have told the Court before hearing

19

today, this is a subject of an ongoing investigation.

20

Staszak has been invited to provide any information he has

21

about this.

22

mother's actions with respect to her introduction of her

23

daughter to an adult male in this manner.

24
25

And by taking her 15-year-old daughter

It was shocking for all of us to learn

it is still shocking to this day.

And, Your

Mr.

And we certainly aren't here to defend the

But, Your Honor, we're not here on the mother
today,

we're here on Mr. staszak.

we're not here on the

page 18

1

mother's inaction as a mother.

2

he took.

3

— that comes before this Court, in every case, as this

4

Court knows, congress has put into place laws that put the

5

responsibility with respect to children on adults.

6

don't put the responsibility with the child.

7

put it with the adults.

we're here on the actions

And, Your Honor, in every case that this court

They

They rightly

8

Some people say it takes a village to raise a

9

child, and I have raised teenagers and I think that's

10

true.

11

to make the right choices,

12

young teenagers who are, who are over-sexualized, who are

13

left alone for long periods of time, who are allowed to

14

freely search the internet, communicate with people they

15

don't know on Facebook, on their cell phones.

16

one thing that's always true in a civilized society, and

17

that it's an adult who ultimately has to draw the

18

boundaries, where boundaries need to be drawn.

19

staszak failed to do that with respect to this victim.

20

We have to rely on adults to do the right thing and
sometimes we have children,

But there's

And Mr.

He really went after one of the most vulnerable

21

members of our society:

22

in the midst of a devastating divorce.

23

have, as a decent human being, as a civilized decent man,

24

particularly one who'd had the experience he's had in the

25

military, it was up to him to draw the boundary, to draw

a young girl whose parents were
And where he could

Page 19

l

the lines, and to encourage, if anything, if he had any

2

dealings or association with KG, to make certain that they

3

were on the up and up and they were truly more of a big

4

brother or father figure person in her life than one who

5

took sexual advantage of her.

6

For all these reasons, Your Honor, the united

7

States respectfully requests that the Court impose a

8

sentence that the parties have agreed is a reasonable

9

sentence in this case.

It is a sentence we have

10

recommended of 25 years.

11

to impose some portion of that to run concurrently for the

12

escape —

I understand that the court has

13

THE COURT:

14

MS. MORRISSEY:

15

sorry, Your Honor, I misspoke.

16

Honor, that two years of that consecutively would be

17

appropriate.

18

I do have the preliminary order of forfeiture, Your Honor,

19

for the Court at the right time.

Consecutively, Your Honor.

Thank you.

21

THE COURT:

Miss Day.

I'm

And I would submit, Your

But whatever this Court feels is just.

20

22

Consecutive for the escape.

And

The Court has read your

sentencing memorandum.

23

MS.

24

THE COURT:

25

MS. DAY:

day:

Thank you, Your Honor.
And all of the letters attached to it.
Thank you, Your Honor.

I appreciate —

Page 20

l
2

THE COURT:

Both of them.

Both sentencing

memoranda.

3

MS. DAY:

I appreciate that, Your Honor.

And

4

along with Miss Morrissey, we are recommending an

5

imposition of a sentence of 25 years.

6

that I believe the parties thought encompassed the

7

underlying conduct as well as the flight from prosecution

8

that occurred in this case.

9

that we stand by and I ask Your Honor to consider in

That is something

And that's the recommendation

10

making your determination of sentence, which I know in any

11

case is difficult, and I imagine no less so in this

12

particular case, Your Honor.

13

I appreciate Miss Morrissey's comments about

14

service in the military, and I probably have a deeper

15

understanding of the price of service in the military than

16

most anybody in this room.

17

It takes a certain caliber of person to dedicate

18

their life to their country, and Mr. staszak did that for

19

a long time, for a number of years,

20

family that believes in dedication of service to country.

21

He has in the courtroom today his father, who has served

22

in the military for 30 years.

23
24
25

And he comes from a

Your Honor, also just so that you're aware, he has
a great deal of family support.
are:

In the courtroom today is

His parents Norena staszak; Daniel Staszak; his

page 21

l

Aunt Carrie Staszak; family friends Richard Pratt — or

2

family friend Richard Pratt; his grandparents Gene and

3

Betty Hudgens; uncles Bill Bradley and Ed staszak; cousin

4

sherry Franks; friend Melissa Hampton; cousin Shelby

5

Modglon; friends and neighbors, Larry Phipps, Sandy

6

Phipps, Sam Beggs; his Aunt Julie Martin; a friend and

7

neighbor Becky Malone; an aunt, Donna Jackson; and friends

8

Joe and Li via Farmer.

9

Miss Morrissey commented on the fact that his

10

service — my client's service to country called for him

11

to act in a different way than what he did in this case.

12

And Matthew will acknowledge that, and he will address

13

that, and he has apologies to make that, that need to be

14

made, and he understands that.

15

But, Your Honor, I think the fact that knowing

16

what occurred in this case, that this many people are

17

still willing to come and stand up for Matthew Staszak and

18

say, we know the person that he truly is, and we will

19

support him.

20

this sentence and in any way they can.

21

speaks very, very highly of Matthew staszak.

22

They will support him through the service of
I think that

I think that there are other things — I know that

23

you have read the letters.

24

specifically called by the letter from Reverend Paul

25

Lemoi.

I will tell you, I was

That is one of the people that Matthew — that is

Page 22

l

a chaplain that Matthew served under.

2

that capacity as chaplain's assistant, also as bodyguard,

3

so he would have also served in that position with

4

Reverend Lemoi, who is a retired chaplain — or colonel as

5

a chaplain in the military.

6

above all was and I still believe a good example of the

7

dedication of service that the men and women of armed

8

forces have for our great nation,

9

to hear — he ministered to others or assisted in that

And he served in

And he said that Matthew

He was a person who had

10

counseling.

And Reverend Lemoi said that Matthew held

li

things in the strictest confidence.

12

assistant Matthew is always professional, and off duty

13

Matthew became a good friend.

As a chaplain's

14

He asks that you take those qualities into account

15

as you determine the appropriate sentence to be imposed in

16

this case.

17

in looking over his military records, as I said,

18

he was both a chaplain's assistant and did the duties

19

entailed in being a bodyguard.

20

also stood out to me both from his father's letter to you

21

as well as from his military record, is that he served 12

22

months of deployments within a 17-month span.

23

him to provide and facilitate ministry to a 937-man

24

battalion.

25

sailors in remembering their fellow servicemen who gave

But one of the things that

It enabled

He was indispensable in allowing marines and

Page 23

l

their lives for their country during the initial ground

2

war in operation Iraqi Freedom,

3

staszak -- Matthew, some of those services were for his

4

compatriots in the service, for men and women that he

5

knew.
But the fact that he was that person, Your Honor,

6
7

And I might also say Mr.

he is still that person as his family can attest to.
None of them understands.

8

I don't think that

9

fully Matthew will ever understand what it was that called

10

him to step out of character in this particular situation.

11

But I think that the true character is that man that is

12

seen in the service to his country.
when you look at the 3553(a) factors, Your Honor,

13
14

there is no question that the sentence that we are

15

requesting reflects the seriousness of the offense and

16

will promote respect for the law.

17

It will also have a huge deterrent impact, for 25

18

years is a massive sentence for a relatively young man

19

with no prior criminal history.

20

To protect the public from further crimes of the

21

defendant.

It's unlikely that after service of such a

22

sentence that, that he would be likely to commit further

23

crimes.

24

this nature, there is also the fact that he will be

25

required to register as a sex offender for the remainder

And if the Court has any concerns about crimes of

Page 24

l

of his life.

2

checks to make sure that he's registered and also checks

3

of his home to make sure he's living in an appropriate

4

place.

5

And as a result, will be subject to random

There is no additional need for educational or

6

vocational training, medical care or other correctional

7

treatment.

I'm sure that Matthew will continue with his

8

education,

we have discussed that.

9

that there is anything in the service of sentence that

10
11

improves that situation.
I think, Your Honor — well, I know, as I said,

12

this is an incredibly difficult case,

13

will be addressing you.

14

But I don't think

I know that Matthew

one thing that did jump out at me as well that

15

Miss Morrissey said is that Matthew has the opportunity to

16

assist in that further investigation of the mother in this

17

case, and I have discussed that comment with Mr. staszak

18

and the prior communications that counsel and I had before

19

hearing today.

20

interested in assisting the Government, should they so

21

require or request his assistance in that matter,

22

been a, not an easy decision for him, but nothing about

23

this case has been easy.

24
25

And Mr. Staszak has indicated that he is

It's

Your Honor, given all of the facts, the letters,
the family support, the nature and circumstances of the

Page 25

l

offense, and particularly Matthew Staszak himself, Your

2

Honor, we are requesting that you impose the sentence that

3

is agreed upon, 25 years as a total sentence, combining in

4

whatever fashion the Court deems appropriate to give the

5

consecutive sentence that's necessary.

6

THE COURT:

7

please approach the podium.

Mr. staszak, will you and your counsel

8

THE DEFENDANT:

9

THE COURT:

10

Yes, sir.

Anything you wish to say or offer in

mitigation before this court imposes sentence?

11

the

12

Good afternoon, Judge Gilbert.

13

right and wrong things I have done in my life.

14

guilt over the wrongs, but I am here to do absolutely

15

everything that I can to make things right.

16

faith and hope that you make the best decision of my life

17

based upon your wisdom and knowledge.

18

DEFENDANT:

Yes, I do, Your Honor.
I am aware of the
I do feel

I live by

Your Honor, please consider my personal character

19

in sentencing.

20

outstanding sailor, mentor, and exceptional leader.

21

of quote.

22

I have been described as, quote,

By my superiors in the military,

I, quote,

23

greatly, end of quote, exceeded the standards for

24

teamwork.

25

End

I was recommended for the Seaman to Admiral Stay

Page 26

l
2

21 Program.
I was treasurer and later president of the Petty

3

officers Association; voting officer for deployed sailors

4

and marines.

5

I volunteered with numerous organizations,

6

including:

7

Legion; Habitat For Humanity; the Boy scouts of America;

8

the USO; special Olympics; Wounded warrior Project; the

9

Masonic Lodge; the Buccaneers Club; the Jaycees; the St.

10

Jude's Children's Network; and the Republican party, to

11

include the Marine corps Toys For Tots program.

The veteran of Foreign wars; the American

12

I have received numerous military commendations

13

during my 13-year career, but I am especially proud of:

14

one, completion of my Fleet Marine Force warfare

15

pin, which means the united states Marine Corps's highest

16

qualifications and elite standards; less than one percent

17

of U.S. Naval personnel achieve this high qualification;

18

Two, being trained and qualified in the Marine

19

Corps martial arts program and being a qualified Marine

20

Corps expert in rifle and pistol marksmanship, and being

21

the most personally selected bodyguard for senior Navy

22

chaplains and officers, including the Navy Chief of

23

Chaplains; Admiral Burt; cardinal George for the

24

Archdiocese of Chicago; and the Senior chaplain of the

25

Afghanistan Theater of Operation Enduring Freedom, Colonel

Page 27

l
2
3
4

Lemoi;
Two — or three, excuse me, being an instructor
and leader;
And last, most importantly, serving my country

5

both here and in combat zones for over 13 years

6

demonstrated by my numerous awards, decorations, and

7

commendations.

8
9

as is

Additionally, Your Honor, sir, I come from a
family that is educated, hardworking, and very well

10

respected within the community.

11

professionals such as business people, elected or

12

appointed officials, both active and retired military

13

service members, educators, healthcare professionals, coal

14

miners, and farmers.

They have been active

15

Judge Gilbert, I would like to apologize to my

16

family for the heartache that they have had to endure.

17

would like to point out that I have two very fantastic

18

parents who have worked their entire lives.

19

born and raised in Chicago and moved to Christopher,

20

Illinois, in 1970, when he was a teenager.

21

united States Army over 30 years ago, and is a well

22

respected, decorated, staff noncommissioned officer.

23

I

My father was

He joined the

My mother, who raised three boys and retired from

24

Wal-Mart after obtaining the rank and position of manager,

25

later became a full-time waitress, following the same hard

Page 28

l

working and dedicated ethic just as my great aunt, Mary

2

Lou, the founder of Mary Lou's in Carbondale.

3

Your Honor, with consideration of all this, I

4

humbly offer my sincere apology to KG for my actions.

5

hope she finds the healing she seeks and will grant

6

forgiveness eventually.

7

future.

8
9

I

I wish her all the best in the

I also offer my apologies to Your Honor, the
Honorable Philip Frazier, the united states Marshals, the

10

United States Probation, and the united States Navy for my

11

absence without leave status beginning in October of 2012.

12

I deeply regret the decision I made at that time and I

13

have learned from my mistakes.

14

Your Honor, I do respectfully request that you

15

consider this information in determining sentence.

16

you, sir.

17
18

THE COURT:

Okay, Mr. — is it staszak or — how

do you pronounce your last name?

19

THE DEFENDANT:

20

the

21

THE DEFENDANT:

22

THE COURT:

23

Thank

COURT:

it's staszak, sir.

staszak, all right.
Yes, sir.

I'm going to ask you a few questions,

too.

24

THE DEFENDANT:

25

THE COURT:

Yes, Sir.

Let's start from the — going

Page 29

l

backwards, why did you abscond when you were on bond?

2

THE DEFENDANT:

3

THE COURT:

4

THE DEFENDANT:

5

THE COURT:

6
7

Sir -

why did you take off?
— I got scared.

And don't just say, I made a bad

decision.
THE DEFENDANT:

No.

I got scared.

The deal on

8

the table was, if you take this to trial, you're going to

9

get life in prison if you are found guilty.

well, that

10

just scared the tar out of me and I just — I couldn't

11

deal with it.

12

make a decision that, okay, I was going to offer both the

13

victim and the mother to come forward with the truth —

14

which I did write letters to them, okay?

15

forward with the absolute truth to lighten the load off of

16

this case here,

17

to basically just abscond, get away, spend time by myself,

18

figure some things out in my life, straighten my life out

19

somehow, and eventually, like I told the marshal earlier,

20

I was going to turn myself in.

So, I had made — I took it upon myself to

so, I made a decision upon myself, sir,

21

THE COURT:

22

THE defendant:

23

to come

But I came —

They always say that.
Yeah, I know.

But I came back to

the local area and I got caught.

24

the

25

THE DEFENDANT:

COURT:

Yeah, in a bar.
Yes, sir.

Page 30

l
2

THE COURT:

straightening your life out that much then.

3
4

so you weren't, you weren't

THE DEFENDANT:

well, I did have a beer or two,

yes, sir.

5

THE COURT:

what's your version in how this

6

relationship started with KG?

7

THE DEFENDANT:

My version is:

KG and I first

8

officially met in Columbia, South Carolina, in person.

9

She was with her family at the time.

10

THE COURT:

11

THE DEFENDANT:

12

THE COURT:

13

whoa.

whoa.

Yes.

You didn't just happen to go to south

Carolina and, I mean —

14
15

whoa.

THE DEFENDANT:

I was stationed in South Carolina,

si r.

16

THE COURT:

Well, I know, but I'm reading the

17

presentence report and they said this relationship started

18

on Facebook.

19

THE DEFENDANT:

20

relationship.

21

someone

22
23

the

There was, there was not a

I was already in a relationship with

COURT:

All right,

well, whatever you want to

cal 1 it.

24

THE DEFENDANT:

25

the

COURT:

Yes, sir.

Started — the contact started on

Page 31

l

Facebook; is that correct?

2

the defendant:

3

THE COURT:

4

know, I'm not on Facebook.

5

Facebook and I'm glad now, but —

6
7

Yes, sir.

That's correct.

How did you get her Facebook?

THE DEFENDANT:

you

They don't allow me to be on

The mother at the time was having

an affair — am I allowed to mention individuals?

8

MS. DAY:

9

THE DEFENDANT:

Don't use names.
Okay.

— with an individual with

10

the initials DP.

11

through DP, to the victim's mother,

12

become friends with the mother on Facebook, as well as the

13

sister, and then eventually the victim, sir.

14
15

THE COURT:

And at that time I was introduced,
At that time, I did

when did you know that the victim was

underage?

16

THE DEFENDANT:

Approximately — I sent her a

17

cellular phone through the mail,

18

can go back, there is no age described on there.

19

was never on Facebook.

20

the summer of 2000 —

21
22
23

THE COURT:

And as you read, if you
Her age

So I would have to guess it was in

So her Facebook page didn't have her

age?
THE DEFENDANT:

That is correct.

Yes, sir.

is

24

your question, did I know the age before I met — or at

25

the time I met her on Facebook?

Page 32

l

THE COURT:

2

THE DEFENDANT:

3

THE COURT:

4
5

Yeah, let's start with that.

NO, Sir.

Then when did you find out that she

was underage?
THE

defendant:

After the victim and I had met on

6

a couple of occasions after the first initial contact in

7

Columbia, South Carolina.

8

THE COURT:

9

10
11

And yet you continued the

relationship?

THE DEFENDANT:
relationship, yes, sir.
COURT:

Big mistake.

12

the

13

THE DEFENDANT:

14

THE COURT:

15

THE DEFENDANT:

16

think so —

17

the

18

We did have an on-and-off

COURT:

Yes, Sir.

Didn't you know that was illegal?

No.

well, let me think about this.

You're a chaplain.

I

You're

educated.

19

THE DEFENDANT:

20

THE COURT:

21

THE

22

THE COURT:

Yes, sir.

Yes, sir.

Yes, sir.

You knew she was a minor.

defendant:

Yes, sir.

And when you found out she was a

23

minor, you should have said, that's it, you're too young.

24

But you didn't.

25

You know, you can't blame her.

And you just continued this relationship.

Page 33

1

THE DEFENDANT:

2

THE COURT:

correct.

Yes, sir.

You're the one at fault here.

3

Anything else you wish to say?

4

THE DEFENDANT:

I thank you for your time

5

considering the circumstances, Your Honor, and appreciate

6

you letting me speak today, sir.

7

THE COURT:

Mr. staszak, there's no explanation,

8

no excuse, no, no matter how you try to slice and dice

9

this, what you did in taking advantage of this minor, it

10

was unconscionable.

ll

a willing participant is of no consequence.

12

what it is and you are to be punished for that.

And whether or not she was or was not

13

THE DEFENDANT:

14

the

COURT:

The law is

Aye, aye, sir.

The Court, in looking at the 3553(a)

15

factors, which I do, has to look at the nature and

16

circumstances of the offense, which I have described as an

17

unconscionable offense.

18

minor is one of the most horrendous crimes there is.

19

The sexual exploitation of a

The history and characteristics of you as the

20

defendant, and that's in total opposite to what the nature

21

and circumstances of the offense is.

22

old, with no criminal history; you have family support;

23

involved with the church; assistant — a decorated combat

24

veteran.

25

this country.

You are now 30 years

And the court thanks you for your service to

Page 34

1

THE DEFENDANT:

2

THE COURT:

Thank you 9 si r.

It's people like you that make people

3

like me be able to walk down the street without fear of

4

being blown up.

5

You were a chaplain assistant in the military

6

which, which makes this crime even more puzzling in the

7

fact that you should have known better.

8

work for — in Haiti is acknowledged.

Your humanitarian

9

The Court, also looking at the history and

10

characteristics, no criminal history for sexual offenses.

11

The Court acknowledges you are probably a low risk for

12

recidivism.

13

consequences of being a sex offender and the Court is

14

taking all of that into consideration.

15

Your attorney made the argument of collateral

Your attorney makes the argument of the flawed

16

pornography guidelines; I'm not sure they're that

17

applicable here but the Court has considered all of that

18

in trying to fashion a sentence that is sufficient but not

19

greater than necessary to comply with the purposes set

20

forth in 3553(a).

21

You know, sentencing someone is the most

22

difficult, emotional, stressful, and personal aspect of

23

what I do, of what any judge does,

24

the freedom of someone, we do not take that decision

25

lightly.

when you are deciding

But by the same token, punishment has to fit the

Page 35

And you have, you have pled guilty to some serious

l

crime.

2

offenses here, for which you will be punished and for

3

which you will be spending a considerable amount of time

4

incarcerated.

5

The Court, having considered the, any aggravating

6

and mitigating circumstances — and have I addressed all

7

of your mitigating circumstances, Miss Day?

8

MS. DAY:

9

THE COURT:

Yes, Your Honor.
— has considered all the information

10

in the presentence report, including guideline

11

computations and factors set forth in 18 US 3553(a).

12

it will be the judgment of this court, defendant Matthew

13

staszak is hereby committed to the custody of the Bureau

14

of Prisons to be in prison for a term of 240 months,

15

consisting of 180 months on each of counts one, two, and

16

three, to be served concurrently; and a term of 60 months

17

on count four, to be served consecutively to the terms

18

imposed on counts one, two, and three.

19

you — for a total of 20 years.

20

And

It is ordered that

i

It is ordered that the Court feels that a 20-year

21

sentence is sufficient but not greater than necessary to

22

comply with the provision of the statute as well as the

23

facts of this case, and it is below the recommendation of

24

both the Government and your counsel.

25

it is ordered, you shall pay the united States a

Page 36

i

l

special assessment of $400, and the special assessment is

2

payable through the clerk of the U.S. District Court.

3

It is further ordered that you shall pay the

4

united States a fine of $1,250 consisting of a 300-dollar

5

fine on each of counts one, two, and three, and a fine of

6

$350 on count four.

7

The fine is due immediately.

It is further ordered that you shall notify the

8

united states Attorney for this district within 30 days of

9

any change of name, residence or mailing address, until

10

all fines, restitution, costs and special assessments

11

imposed by this judgment are fully paid.

12

Having assessed your ability to pay, payment of

13

the total criminal monetary penalties shall be paid in

14

equal monthly installments of $20, or 10 percent of your

15

net monthly income, whichever is greater.

16

You shall pay any financial penalty that is

17

imposed by this judgment that remains unpaid at the

18

commencement of the term of supervised release.

19

upon release from imprisonment, you shall be

20

placed on supervised release for a term of 10 years.

21

term consists of a term of 10 years on counts one, two,

22

and three, and a term of three years on count four, all

23

such terms to run concurrently.

24
25

This

within 72 hours of release from the custody of the
Bureau of Prisons, you shall report in person to the

Page 37

l

probation office in the district to which you are

2

released.

3
4
5
6
7

while on supervised release, you shall comply with
the following mandatory conditions:
You shall not commit another federal, state or
local crime;
You shall not unlawfully possess a controlled

8

substance and shall refrain from the unlawful use of a

9

controlled substance;

10

You shall submit to one drug test within 15 days

11

of release from imprisonment, and at least two periodic

12

drug tests thereafter, as determined by the Court, not to

13

exceed 52 tests in any one-year period;

14

You shall not unlawfully possess controlled

15

substance and shall refrain from the unlawful use of

16

controlled substance;

17

As there is no indication of recent substance

18

abuse, the Court suspends mandatory drug tests.

19

you impose low risk for future substance abuse, mandatory

20

drug testing will be suspended.

21
22
23
24
25

And as

You shall not possess a firearm, ammunition,
destructive device, or any other dangerous weapon.
You shall comply with the collection of DNA as
directed by the probation officer.
You shall comply with the requirements of the sex

Page 38

l

offender Registration and Notification Act as directed by

2

the probation officer, the Bureau of Prisons, or any state

3

sex offender registration agency in which you reside,

4

work, or are a student, or have a qualifying — convicted

5

of a qualifying offense.

6

You shall pay any fines or restitution in

7

accordance with the schedule of payments as ordered by the

8

court, and you must comply with the following standard

9

conditions that have been adopted by this court as well as

10
11

the following additional special conditions:
Due to concerns related to your mental health, you

12

shall participate in a program of mental health treatment

13

which may include participation in treatment for anger

14

management, domestic violence, cognitive skills, or other

15

forms of therapy or counseling that may be recommended as

16

directed by the probation officer.

17

mental health assessment and/or psychiatric evaluation.

18

This may require participation in a medication regimen

19

prescribed by a licensed practitioner at the direction of

20

the probation officer.

21

This may include a

You shall pay for the costs associated with

22

services rendered based on a court-approved sliding fee

23

scale as directed by the probation officer.

24
25

Your financial obligation shall never exceed the
total cost of services rendered.

Page 39

Based upon the nature of the offense, and your

l

2

history, you shall not have any contact with KG.

3

You shall submit your person, residence, real

4

property, place of business, computer, electronic

5

communication or data storage device or media, vehicle,

6

and any other property under your control to a search

7

conducted by any united states probation officer and such

8

other law enforcement personnel as the probation officer

9

may deem advisable, and at the direction of the probation

10

officer, at a reasonable time and in a reasonable manner

11

based upon reasonable suspicion of contraband or evidence

12

of a violation of a condition of release, all without a

13

warrant.

14
15

Failure to submit to such a search may be grounds
for revocation.

16

You shall inform any other residents that the

17

premises and other property under your control may be

18

subject to a search pursuant to this condition.

19

You shall permit the probation officer to have

20

access to any personal computer and/or electronic device

21

capable of accessing the internet, worldwide web,

22

electronic mail.

23

officer or a designee to conduct regular searches of your

24

computer and/or electronic device using software

25

monitoring devices if deemed necessary by the probation

You shall also allow the probation

Page 40

l

officer.

2

You shall advise the probation officer of all

3

e-mail addresses used on both public and private

4

computers.

5

You shall consent to third party disclosures to

6

any employer or potential employer concerning any

7

computer-related restrictions that may be imposed.

8
9

You shall warn other residents or occupants of
your home that computer systems will be subject to

10

inspection by the probation officer and/or authorized

11

contractor.

12

And you shall also participate in an approved

13

sexual offender treatment program as directed by the

14

probation officer.

15

if deemed necessary, you shall submit to an

16

approved sexual predator evaluation as directed by the

17

probation officer.

18

requirements and conditions of the treatment program,

19

including submission to polygraph and/or plethysmograph

20

examination to determine compliance with conditions of

21

release.

22

You shall abide by all rules,

You shall remain in the program until successfully

23

completed or until such time as you are released from the

24

program by the Court and/or probation officer.

25

You shall pay for the costs associated with

Page 41

l

services rendered based on a court-approved sliding fee

2

scale as directed by the probation officer,

3

financial obligation shall never exceed the total cost of

4

services rendered.
You shall not possess or use electronic devices

5
6

capable of taking photographs and/or videos.

7
8

You shall not subscribe to any text messaging
services or any data file services.

9
10

Your

you

are prohibited from activity in social media

sites, internet chat rooms, and internet forums.
Based upon the nature of this offense and your

11
12

history, you shall not have any contact with females under

13

the age of 18 unless in the presence of a responsible

14

adult who is aware of the nature of your background and

15

instant offense and who has been approved by the probation

16

offi cer.
You shall provide the probation officer and the

17
18

Financial Litigation unit of the united States Attorney's

19

Office with access to any requested financial information.

20

you

21

information with the Financial Litigation unit.

22

are advised that the Probation office may share such

You shall apply all moneys received from income

23

refunds, lottery winnings, judgments, and any other

24

anticipated or unexpected financial gains to the

25

outstanding court-ordered financial obligation.

You shall

Page 42

l

immediately notify the probation officer of the receipt of

2

any indicated moneys.

3

In addition to the sentence imposed, you shall

4

forfeit your interests in the following property:

5

2007 Jeep Grand Cherokee, and also your Verizon cellular

6

telephone, model Droid X2.

Your

7

The court needs to advise you, you have a right to

8

appeal this, your sentence if you believe your guilty plea

9

was somehow lawful or involuntary or if there was some

10

other fundamental defect in the proceedings that was not

11

waived by your guilty plea.

12

right to appeal the sentence itself, particularly if you

13

believe the sentence this Court just imposed is contrary

14

to law.

15

You also have a statutory

However, a defendant may waive those rights as

16

part of a plea agreement, and you have entered into a plea

17

agreement that waives some or all of your rights to appeal

18

the sentence itself.

19

enforceable, but if you believe the waiver is

20

unenforceable, you can present that theory to the

21

appellate court.

22

Such waivers are generally

With few expectations, any notice of appeal must

23

be filed within 14 days after entry of judgment,

if you

24

cannot afford the services of an attorney to handle your

25

appeal, one will be appointed for you.

Page 43

l

Do you understand that?

2

THE DEFENDANT:

3

THE COURT:

4

MS. DAY:

Yes, sir, I do.

okay.

Anything further, Miss Day?

Your Honor, I have two requests:

One,

5

would be that the Bureau of Prisons be informed that he

6

would request placement at the facility at Marion; and

7

second, would be that he have a moment with his family.

8
9

the

COURT:

okay.

The Court will grant both of

those requests.

10

THE DEFENDANT:

ll

THE COURT:

12

things I need to say here.

Thank you.

You may have a seat.

13

THE DEFENDANT:

okay, sir.

14

MS. MORRISSEY:

Your Honor?

15

THE COURT:

16

There's more

Do you have the forfeiture order

there?

17

MS. MORRISSEY:

18

THE COURT:

19

MS. MORRISSEY:

Yes, I do, Your Honor.

Anything else from the Government?
I just want to make sure I

20

understood, the total sentence is 300 months, 240 with 60

21

consecutive.

22

THE COURT:

23

MS. MORRISSEY:

24

THE COURT:

25

60 consecutive.

NO.
NO.

The sentence is 240 months:

180 and

20 years and not 25 years.

Page 44

l

MS. MORRISSEY:

2

THE COURT:

3

okay? it's a 20-year sentence and not

This is the — any objections to the preliminary
forfeiture order?

6

MS. DAY:

7

the

8

Thank you, Your Honor.

25.

4
5

Okay.

None, Your Honor.

COURT:

is this something I initial or sign?

I sign it?

9

THE CLERK:

Just sign it.

10

THE COURT:

okay, usually at this point in a

(Pause.)

Thank you.

11

sentencing I get up and walk out the door.

12

doing that now because this case has bothered me.

13

want to let everybody know it's bothered me.

14

And I

There's no justification for what Mr. staszak has

15

done.

16

behalf of the victim KG.

17

But I'm not

And as I said earlier, there's no fault at all on

Miss Morrissey was absolutely correct when she

18

said that congress puts the responsibility for protecting

19

children on adults.

20

But that includes parents.

And not only when it comes to being a parent does

21

Congress put the responsibility of protecting their own

22

children, but Mother Nature does.

23

if anybody believes in a higher power, that they — that

24

goes along with it.

25

And if someone — and

what disturbs me about this case is that I feel

Page 45

l

that I don't have all the facts here, and that I have

2

sentenced Mr. staszak partly in a vacuum.

3

There's no question in my mind that when I read

4

the presentence report and then read the letters that were

5

given in the defense filing, that what we have here is a

6

tale of two stories on how this relationship may have

7

started, how it was fostered, how it continued for so

8

long.
And it's the opinion of this Court that the mother

9
10

of KG is culpable, almost as culpable as Mr. staszak.

11

took her daughter, her minor daughter, who she knew,

12

across state — across state lines for her to engage in

13

illicit sexual activity with the defendant.

14

federal offense.

She

That's a

That's a crime.

There's allegations that maybe the, you know, the

15
16

defendant may have provided financial support during the

17

time that there was a breakup of the marriage of KG's

18

mother and father and to maybe help them.

19

allegations of possible extortion.

20

Mr. staszak for what he did.

21

he didn't, and that's an error in judgment aggravated in

22

already an abhorrent situation.

23

There's also

That doesn't excuse

He should have stopped, but

But the mother should bear some responsibility

24

here.

25

be prosecuted,

I think it's the opinion of this Court she should
she has failed not only her, not only the

Page 46

l

duties of being a mother in protecting her child but she

2

failed the law, as Miss Morrissey pointed out.

3

Congress has asked adults to protect children.
She didn't do that here.

And not only didn't do it, she

5

didn't even — she wasn't the one that turned Mr. staszak

6

in.

7

this relationship by contacting the authorities.

8

didn't,

She had ample opportunity for many months to stop

why?

But she

I don't know the answer to those questions.

But I do know that, that this case has a peculiar

9
10

aroma to it.

11

He's paying for the crimes that he has committed and the

12

hurt he has occasioned on, on the victim here.

13

paying the price for it.

14

be alone, because I think there's — the mother should be

15

looked at.

16

Mr. Staszak is going to jail for 20 years.

And he's

But I don't think that he should

And I'm asking the u.s. Attorney to take a look at

17

this, maybe send a copy of this transcript to the U.S.

18

Attorneys in South Carolina and North Carolina for

19

possible prosecution for the same, one of the same counts

20

that Mr. staszak pled guilty to.

21

It's unconscionable for a mother to knowingly

22

allow a minor daughter to have a relationship with an

23

adult.

24

of the law.

25

It's not only unconscionable but it's a violation

That concludes this hearing.

Page 47

l

And, Mr. staszak, you will be able to have an

2

opportunity say goodbye to your family before they head

3

you off to the Bureau of Prisons.

4

THE DEFENDANT:

5

THE

6

(Court adjourned at 3:05 p.m.)

clerk:

Thank you, sir.

All rise.

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

Page 48

1
2

REPORTER* S CERTIFICATE

I, Christine A. Dohack, Registered Merit Reporter

3

and Certified Realtime Reporter in and for the united

4

states District court for the Southern District of

5

Illinois, do hereby certify that I was present at and

6

reported in machine shorthand the proceedings in the

7

above-mentioned court; and that the foregoing transcript

8

is a true, correct, and complete transcript of the

9

electronic recording.

10

I further certify that I am not an attorney for,

11

nor employed by, nor related to any of the parties or

12

attorneys in this action, nor financially interested in

13

the action.

14

I further certify that this transcript contains

15

pages 1-49 and that this reporter takes no responsibility

16

for missing or damaged pages of this transcript when same

17

transcript is copied by any party other than this

18

reporter.

19
20

IN WITNESS WHEREOF, I have hereunto set my hand at
Benton, Illinois, this 28th day of July, 2014.

21
22

i/Chrv&tin&A. Vobacb, KMK, CRK

23
24

Christine A. Dohack, rmr, CRR

25

Page 49

A-19

Case 3:15-cv-00020-JPG Document 20-1 Filed 10/23/15 Page 1 of 14 Page ID #187

United States District Court
for the
Southern District of Illinois
MATTHEW LEE STASZAK
Petitioners)
vs.

Case Number: 15 CV 00020 JPG

UNITED STATES OF AMERICA
Respondents)
AFFIDAVIT
I, Melissa A. Day, the undersigned affiant, state as follows:
1.

The Federal Public Defender’s Office was appointed to represent Petitioner in the

matter of United States v. Matthew Lee Staszak, 12 CR 40064-001 JPG, on June 3,2013. Cr.
Doc. #59. i
2.

On August 5,2013, Petitioner entered a negotiated plea of guilty to sexual

exploitation of a minor (count one); travel with intent to engage in illicit sexual conduct (count
two); travel with intent to engage in illicit sexual conduct (count three); and failure to appear
(count four). Cr. Doc. #68. On February 7,2014, Petitioner was sentenced to a term of 180
months incarceration on counts one, two and three, to run concurrently, and a term of 60 months
on count four, to run consecutively to counts one, two and three; ten years’ supervised release, a
$400 special assessment and a total fine of $1,250.00. Cr. Doc. #82.
3.

On or about January 8,2015, Petitioner filed a habeas petition and attached

affidavit alleging that counsel provided ineffective assistance in the matter of United States v.
References to the docket in case number 15 CV 00020 JPG will be denoted as “Cv Doc.”
while references to the docket in case number 12 CR 40064 JPG will be denoted as “Cr Doc.”
i

Exhibit 1

Case 3:15-cv-00020-JPG Document 20-1 Filed 10/23/15 Page 2 of 14 Page ID #188

Matthew Lee Staszak, 12 CR 40064 JPG. Cv Doc. #1. On July 17,2015, Petitioner filed a
“Response” in which he stated that he “waive[d] attorney-client privilege” as to Affiant and
members of her office and did not oppose the government’s request for an order authorizing the
affidavits. Cv Doc. #11. On July 21,2015, a Memorandum and Order was entered authorizing
Affiant and certain others to provide affidavits to Counsel for the Government. Doc. #12. This
affidavit follows.
4.

Following review of the allegations of ineffective assistance of counsel, affiant

reviewed her file. In light of that review, counsel responds to allegations as follows:2
A.

Grounds one, three, five and six: Counsel used threats
of third party prosecutions to coerce movant into
pleading guilty; Counsel failed to investigate Count One;
Counsel was informed the allegations in Count One and
Count Two never occurred.

My notes reflect that, following appointment of the Federal Public Defender’s Office, I
first met with Petitioner on June 7,2013, at the Jackson County Jail.3 At that time, Petitioner
informed counsel that he was planning on having a j ury trial, but would look at offers. Speedy
trial was discussed with Petitioner and he authorized that his case be continued as needed for trial
purposes. During this initial meeting, we also discussed the injuries received at the time of his
arrest; we discussed the bond hearing/motion to revoke bond; we reviewed the filings, motions
and responses in his case to date; reviewed his prior attorney’s file which had been supplied to

2
The Honorable J. Phil Gilbert entered an Order on January 16,2014, authorizing Affiant
to provide a written response to Petitioner’s allegations. CV Doc. #12.
3
Counsel’s notes reflect that she initially met with Petitioner one year prior on June 21,
2012, as a part of his initial appearance on the original indictment. Petitioner retained counsel at
that time. The Federal Public Defender’s Office was appointed to represent Petitioner on June 3,
2013. Cr. Doc. #59.
2

Exhibit 1

Case 3:15-cv-00020-JPG Document 20-1 Filed 10/23/15 Page 3 of 14 Page ID #189

me;4 read through and discussed the discovery reports (including the report of the victim’s
interview which states that Petitioner used his Verizon Droid phone to make a video of them
having sex which they then viewed together and which he later reported to her he had deleted);
discussed certain potential motions; discussed the need for me to prepare a sentencing letter for
Petitioner;5 we discussed Petitioner’s current military status; discussed “mom’s testimonial
issue” and noted the need to request information on the investigation of “mom.” We also
discussed questions Petitioner had regarding the victim in this case. Petitioner gave me “lull
permission” to speak with his parents “as needed.” We also discussed the potential for any
lessor included charges.
On June 10,2013,1 corresponded with government counsel and noted that a continuance
would be needed if the matter proceeded to trial and that I was not expecting a plea. I also noted
that there were outstanding motions issues (from before my representation) and that I needed to
determine whether additional motions or responses needed to be filed. The government
responded with a tentative offer of 30 years, noting that they would forego additional charges
against Petitioner, and asked whether it was worth further discussion. I agreed to review the
guideline calculations and noted I would have to meet with my client again to determine whether
there was a need to further discuss negotiations. I also requested additional discovery. The
government responded, noting that there would be additional discovery.
4
Of note, prior Counsel’s file notes reflect specifically that on August 7,2012, Petitioner
listened to the May 29,2012, recorded telephone conversation of Petitioner and the victim. The
May 29,2012, recording includes Petitioner’s acknowledgement of the existence of the video by
reference to the fact that he deleted it, apparently in part because he was in the video and
recognized that its existence would be a detriment to his future.
5
“Sentencing letter” is my shorthand term for a letter I try to prepare for all clients. The
letter outlines the charges, the statutory penalties, the elements of the offense and trial options,
various plea options, and potential guideline calculations based upon the information currently in
my possession.
3

Exhibit 1

Case 3:15-cv-00020-JPG Document 20-1 Filed 10/23/15 Page 4 of 14 Page ID #190

Upon review of the guideline calculations, I questioned the calculations as tendered.
Government Counsel ultimately agreed that one suggested enhancement was inapplicable.
On June 14, 2013,1 prepared a “sentencing letter” for Petitioner which outlined the
following: 1) the statutory penalties for each charged count; 2) the elements of each charge and
other information relevant to trial; 3) options for plea (including the government’s suggested deal
for a recommended 30-year sentence); 4) sentencing guideline information and 5) information
concerning the collateral consequences of a conviction. In that letter, I informed Petitioner of the
following:
If you proceed to trial and are acquitted on all counts, sentencing
will not be at issue. If you plead guilty or are found guilty at trial,
you will be sentenced.
Your case is still under investigation. There is a distinct possibility
that additional charges will be brought against you, if you proceed
to trial.
If you proceed to trial, I will be filing a Motion to Continue as we
discussed and as you agreed. Additionally, I believe the
government will consider additional charges, if you proceed to
trial.
... Mr. Keefe indicated that you might have a defense to counts
two and three regarding the purpose of your travel. At best this is
a difficult defense. The jury would have to find that the travel was
only for a lawful purpose. If the determined that it was for a
lawful puipose and the illegal purpose, it would not benefit you.
For instance, if they believed you travelled to Southern Illinois to
visit your family and also to visit KG and/or have sex with her,
they can still find you guilty.
You have the right to a speedy trial, as we discussed last week.
However, there is not sufficient time for me to adequately prepare
by the currently set jury trial date. If you proceed to trial, I will be
filing a Motion to Continue as we discussed and you agreed.

4

Exhibit 1

J

A-20

Case 3:15-cv-00020-JPG Document 1 Filed 01/08/15 Page 17 of 46 Page ID #17

AFFIDAVIT OF MATTHEW L. STASZAK
I Declare under penalty of perjury and pursuant to 28 U.S.C. § 1746 that the
statements contained herein are true and correct to the best of my knowledge. I am the
Defendant in Case No. 4:12-cr-40064-JPG. My attorney during the events described herein
was Melissa A. Day of the Federal Defenders Office in Benton, Illinois. I make the
following Declarations:
1. That at the time that I entered a guilty plea to Counts 1-4 of the Second
Superseding Indictment, I did so under a threat, relayed to me by Counsel, that the
Government would prosecute my family for aiding and abetting me during the time that I
had failed to appear at a scheduled Court proceeding. That the plea offer by the
Government was for a 25-year sentence. When I asked my Counsel to negotiate a 20-year
sentence, and allow my 2007 Jeep Grand Cherokee to be returned to my father, Daniel
Staszak, my Counsel told me Prosecutors Kit Morrissey and Angela Scott became furious,
and again threatened that my family, and in particular my parents, Daniel and Norena
Staszak, would be immediately prosecuted if I did not accept die 25-year plea. These threats
were made to me during June and July of 2013, while I was incarcerated at the Jackson
County Jail. When I asked Counsel what evidence the Government possessed that my
family aided and abetted me during the time I had failed to appear, Counsel assured me
emphatically that die Government was in possession of this evidence. Based upon these
threats, which I was told by Counsel originated from the United States Attorney's Office, I
agreed to the 25-year sentence. I would not have entered a guilty plea to the charges, had
these threats not been made to me. Instead, I would have proceeded to trial.
2. That when I was apprehended by the United States Marshal Service, I was
severely beaten by U.S. Marshal Clark Meadows. At the time of the beating I was
handcuffed, lying on my back, on the floor, and offering no resistance. I was punched hard
in the face four times. No other Marshal attempted to stop Meadows, or express their
disapproval of Meadows' actions. I was then token to Marion Heartland Medical Center for
treatment. This incident occurred at Raineses Lounge in Marion, Illinois on June 2, 2013,
at approximately 12:30 a.m., and was witnessed by several patrons at die Lounge. This
incident is well documented, and I presently have a case pending against the U.S. Marshals
Service.
3. That following my apprehension, I was eventually taken to Jackson County Jail,
in Murphysboro, Illinois, and Melissa A. Day assumed representation as my Counsel. That
I was pressured repeatedly by her and other staff from the Federal Defender's Office to
plead guilty. I had meetings with Phillip Kavanaugh, Melissa Day, Jared Martin, and
Investigator Gail Jones while I was incarcerated at the Jackson County Jail. At all of these
meetings, the only topic of discussion was that I should plead guilty. Even though I
repeatedly questioned Counsel about my upcoming trial, neither Counsel, nor any member
of the Federal Defender's Office, discussed any aspect of my trial with me, including what
investigations were being conducted, what discovery had been received, what trial strategies
Page 1 of 4

EXHIBIT "A"

Case 3:15-cv-00020-JPG Document 1 Filed 01/08/15 Page 18 of 46 Page ID #18
were being considered, what potential witnesses were being interviewed, or whether I should
testify at my trial, or any other matter concerning my trial.
4. That when I continued to insist on going to trial, Counsel advised me that the
Government was investigating K.G.'s mother, Amy Primo, and that I could assist in die
investigation by providing the Government with information concerning the mother.
Counsel informed me that if I do this, then after I was sentenced, I would receive a
reduction of my sentence "at a minimum 50%." I told Counsel I was interested in
cooperating, but I still wanted to go to trial. These conversations occurred during June and
July of 2013, while I was incarcerated at the Jackson County Jail. Both the Prosecutor and
Counsel stated at my sentencing that there was an ongoing investigation against K.G.’s
mother, and that I would be given the opportunity to cooperate with the investigation of
K.G.’s mother, but I have never been contacted concerning this, and when I inquired to
Counsel about this, she became evasive, and suggested that there had never been a serious
attempt to investigate K.G.'s mother.
5. That around July 25,2013, Phillip J. Kavanaugh, the head of the Federal
Defender's Office, visited me at the Jackson County Jail. The sole purpose of his visit was
to obtain a guilty plea. He stated that there was no way I could win at trial, and that if by
some miracle I did prevail at trial, which he described as having the same probability as
"lightening striking inside a bottle," the Prosecutor, Kit Morrissey, had informed him that
she had already arranged for me to be indicted in the Eastern District of Missouri. He
further stated that the Jackson County, Illinois States Attorney, Michael Carr, who
previously worked at the United States Attorney's Office for the Southern District of
Illinois, would charge me in the State of Illinois, and that if I go to State prison with a sex
charge I would not survive. He made a reference to the conversations I had with Melissa
Day, and stated that if I continued to hold out on tile guilty plea, I would be "putting my
family through Hell." He did not specifically recount the threats of prosecution against my
family that Ms. Day had previously made to me, but the implication was clear, either plead
guilty or my family would suffer greatly.
At this point Mr. Kavanaugh softened his tone somewhat, and told me that if I would
just plead guilty, he could guarantee me that this matter would end, and no charges would
ever be brought against "anyone." In addition to this, he told me that he could arrange it so
that I could serve my sentence at the Federal Correctional Complex at Marion, Illinois,
which was a prison that catered especially to sex offenders, and that I would have a private
cell with a television set and cable, and with my own key to the cell. He reaffirmed the
statements made by Melissa Day that I would be allowed to cooperate in the investigation
against K.G.'s mother, and he would authorize Ms. Day to continue representing me while I
was assisting the Government in the investigation of K.G.'s mother. He assured me that 1
would have e-mail access so I could communicate with Ms. Day concerning the cooperation,
and this representation would continue until I received a sentence reduction.
6. That Counsel again threatened me with the arrest of my family when she
presented me with the Stipulation of Facts and Plea Agreement. That I had previously
advised Counsel that I never produced a video of me and K.G. engaged in sexual activity
(Count 1), and that K.G. and I did not engage in sex on March 22, 2011 (Count 2). That
Page 2 of 4

KYHTBTT "A"

Case 3:15-cv-00020-JPG Document 1 Filed 01/08/15 Page 19 of 46 Page ID #19
concerning the March 22 incident, I advised Counsel that on March 10, 2011,1 took a
14-day Military leave, and traveled to Illinois to spend time with my father, whose birthday
is March 22, and that during these 14 days, I did not meet with K.G. until after K.G.
contacted me on March 16, four days after I arrived in Illinois, and told me that her mother,
Amy, wanted to meet with me to repay me $200.00 she owed me due to a bad check she
had written me during her stay at my home in North Carolina in February of 2011. I met
Amy and K.G. on March 21 at the Carterville McDonalds parking lot around 1:00 p.m.,
and Amy repaid me, and during this meeting K.G. told me she had something important to
tell me, and had to see me privately. The next day, March 22, Amy drove K.G. to Cannon
Park in Carterville to meet me around 11:00 a.m. We rented a room at the Comfort Suites
so we could speak privately. It was then that K.G. told me that she believed she had
contracted a sexually transmitted disease (later diagnosed as Chlamydia) from Kyle
Ferguson, a Student at Southern Illinois University in Carbondale, who she had recently
been involved with. K.G. told me that she and Ferguson had sex several times, and smoked
Pot. She also told me that Ferguson took nude photographs of her, aid he had made a video
of them having sex, and she was worried that he was going to show them to his friends. She
apologized to me for what she had done, and I drove her home. I told Counsel that I did not
travel to Illinois to have sex with K.G., and never intended on seeing her, and only saw her
after she contacted me to tell me her mother wanted to see me to repay the money, and that
we did not engage in sex. When I read the Stipulation of Facts and the Plea Agreement, I
advised Counsel that I was not comfortable signing these documents, and that I was only
willing to stipulate to conduct that I had actually committed. Counsel advised me that it did
not matter; that it would not affect the sentence that I would receive, and that I had no
choice. That if I do not agree to the Stipulation of Facts and Plea Agreement as presented
by the Government, the offer would be withdrawn and my family would be prosecuted.
7. That the threats, promises, and misrepresentations made by Counsel and other
members of the Federal Defender's Office to induce my guilty plea were continuous and
relentless from the date the Federal Defender's Office was first appointed to represent me,
and that I only agreed to plead guilty because of these threats, promises, and
misrepresentations, and that had these threats, promises, and misrepresentations not been
made to me, I would not have pled guilty, but instead I would have proceeded to trial.
8. That Counsel advised me that when I go before the Court to change the plea, I
would be asked if I was satisfied with the legal representation that I received from her, and I
should say that I was, and that I would also be asked if anyone had threatened me or
promised me anything to induce my plea, and that 1 should answer no to this, and when the
Judge questions me about whether the factual basis for the charges are correct, I should
answer that it was. I told Ms. Day this was wrong, that if I was going to plead guilty, I did
not want to lie to Judge Gilbert about what actually happened. I asked her if there was any
other way. She said this was the way it had to be, that this is what the Government wanted,
that "Kit just wants to get this off her desk," and that I needed to "stay on track" and not
deviate from the plan.
9. That within five minutes of entering my guilty plea, I told Melissa Day that I had
made a mistake and wanted to withdraw the plea, and tell Judge Gilbert the truth. She said
Page 3 of 4

EXHIBIT "A"

Case 3:15-cv-00020-JPG Document 1 Filed 01/08/15 Page 20 of 46 Page ID #20
it was too late, that it could not be done, that if I even attempted to withdraw the plea, it
would make die Judge mad and I would receive a longer sentence. My father later told me
that he and my mother spoke with Melissa Day on the day of my plea, and Melissa told
them that I had to plead guilty, that if I had not pleaded guilty that they (my father and
mother) would be arrested, and that Kit had told her the Government had solid evidence
against them for assisting me while I was a fugitive. My father told me he and my mother
were willing to be arrested, that we should do what is right, and not let the Government get
away with their lies and threats. My father told me that he told Melissa Day to begin the
process lhat would withdraw the plea and she refused.
10. That after I was returned to Jackson County Jail following my guilty plea, I
began calling Counsel and requesting that I be provided with the discoveiy in my case. At
first, Counsel refused, but later she sent Investigator Gail Jones to the Jackson County Jail to
review my discovery with me. I asked her to show me the alleged video and the Forensic
Report of my Cell Phone that had supposedly been used to produce the video. She did not
have it, and during a subsequent visit still did not have it, so I terminated the visit.
Following that, Jared Martin visited me and informed me that no sexually explicit video or
Forensic Report was ever turned over during discovery, and that as far as he knew neither
one ever existed. I told Mr. Martin that I had been lied to all this time concerning the video
and Forensic Report, and to instruct Counsel to immediately file for a withdrawal of my
guilty plea, and Counsel failed to do so.
11. That later when I was preparing for my sentencing, Counsel told me that I
needed to forget about withdrawing my sentence, that I needed to "stay on track" and "do
what I was told," or I could go to prison for a 100 years, and that my parents would be
arrested, and reminded me that I could still get a sentence reduction by assisting the
Government in their investigation of K.G.'s mother. I relented at this point and did what I
was told even though I knew it was wrong.
12. That I submitted a Sentencing Memorandum (Doc. #77) to the Court, where I
stated truthfully to the Court the circumstances surrounding my offense. I was told by
Counsel that when the Prosecutor read the Memorandum, she stated that if I do not
withdraw it, the Government would rescind the Plea Agreement, and members of my family
would be immediately prosecuted. This threat was made to me on or about the first week of
January of 2014, while I was incarcerated at the Jackson County Jail and awaiting
sentencing. Based upon these Government threats, I withdrew my Sentencing
Memorandum, and submitted an amended version acceptable to die Government.
SWORN TO ON THIS 14TH DAY OF NOVEMBER, 2014, UNDER PENALTY OF
PERJURY PURSUANT TO_28 U.S.C. § 1746.

MA'

TSTASZAK
Page 4 of 4

EXHIBIT"A"

A-21

Case 3:15-cv-00020-JPG Document 1 Filed 01/08/15 Page 21 of 46 Page ID #21

AFFIDAVIT OF DANIEL L. STASZAK

I Certify under penalty of perjury that the following is true and correct to the best of my
knowledge. My name is Daniel L. Staszak. I am the father of Matthew L. Staszak the
defendant in Case No. 4:12-cr-40064-JPG. I am submitting this Affidavit in support of
Section 2265 Motion that has been filed by Matthew L. Staszak, and swear to all of the
following:
1. While Matthew was on bond, he failed to appear at a scheduled Court hearing, and a
warrant was issued for his arrest. At the time Matthew was taken into custody by the
United States Marshals, while handcuffed and offering no resistance, he was severely
beaten by U.S. Marshal Clark Meadows. Following Matthew’s apprehension for his failure
to appear at Court, Melissa Day of the Federal Defenders’ Office was appointed to represent
him, and during the time that Ms. Day was representing Matthew, 1 had numerous
contacts with her. These contacts consisted of personal meetings, telephone conversations,
emails and letter by courier. During all personal meetings, Norena Staszak Matthew’s
mother was present.
2. The purpose of these contacts was to provide assistance to Ms. Day in preparation for
Matthew’s trial. It was always Matthew’s desire to go to trial on the charges he faced. At no
time did Matthew ever seriously consider a plea bargain. When I asked Ms. Day about trial
strategies or other preparations being undertaken, her response was always that she could
not formulate a strategy until discovery was completed. When I asked her when that would
occur, she was usually vague, and would respond that it was on going.
3. While Matthew was incarcerated at the Jackson County Jail, His mother and 1 visited
him and we had numerous phone conversations, and also communicated by post mail.
Matthew informed me and his mother that he was being pressured by Ms. Day
(And later by Phillip Kavanaugh) to plead guilty to all the charges on his indictment, and to
accept a plea agreement that would include a prison sentence of 25 years. Matthew told me
and his mother that Ms. Day had told him that the Government had evidence that his
mother and I had assisted him while he was a fugitive for failing to appear at Court, and
that the Government was threatening to have his mother and I arrested and prosecuted for
aiding and abetting him during this time. I subsequently spoke with Ms. Day about these
threats, and she informed me that Government Prosecutors had assured her that they were
in possession of sufficient evidence to prove that Norena and 1 assisted Matthew during the
time he was a fugitive, and the prosecutors were telling Matthew that if he did not plead
guilty, Norena and I would be arrested.
4. Even though Matthew knew that we had not assisted him, he was conflicted by these
threats. I told Matthew that I was willing to be arrested and 1 was not afraid of the
Government’s threats, but Matthew was extremely concerned for his mother.
1 Of 4

EXHTRTT "B"

Case 3:15-cv-00020-JPG Document 1 Filed 01/08/15 Page 22 of 46 Page ID #22

Matthew knew that while he was a fugitive the U.S. Marshals had questioned his mother,
they told Norena if they thought Matthew was armed they would kill him on the spot.
Matthew was deeply worried that the U.S. Marshals may react the same being
accompanied by U.S. Marshal Meadow’s and might do to us the same during an arrest as
the way he was arrested and beaten while cuffed and on the floor. I told Matthew that the
decision was his to make regardless of what he decided, and that I would stand by him.
5. The next time I had discussion with Matthew concerning a guilty plea was after
Matthew was visited by Phillip Kavanaugh. Matthew told me that Kavanaugh visited him
at the Jackson County Jail, and Kavanaugh told him that he needed to plead guilty, and
that Matthew had absolutely no chance of prevailing at trial. He also told Matthew that the
Government was already planning to have him indicted in other jurisdictions in the
unlikely event he did prevail at trial, and that one of these jurisdictions would be in the
state of Illinois, where Matthew would not survive if he was sent to an Illinois State Prison
as a sex offender. Matthew told me that Kavanaugh assured him that he would be allowed
to assist the Government in the prosecution of Amy Primo, and would receive a significant
sentence reduction in exchange for his assistance, and the Federal Public Defenders' office
would continue to represent him until he achieved the reduction. Matthew said that
Kavanaugh told him that if he would plead guilty, he could guarantee him that this case
would end now, and that no one else would ever face charges, but if he persists with efforts
to have a trial, his family and some of his friends would be at great risk.
6. Matthew told me that when he decided to plead guilty it was because he could not risk
the consequences that arrest could have on his mother, the threat to her safety, the
humiliation of strip and cavity search, being handcuffed and shackled, the embarrassing
media reports, being taken from her family, and especially her youngest son, who is was
still a minor, and everything else involved in the processing of a person charged with a
crime.
7. On August 5,2013 the day Matthew pleaded guilty, I met with Ms. Day outside the
Courtroom shortly after the proceeding ended. It was approximately 2:30 p.m. Norena
Staszak was with me and witnessed the conversation. I told Ms, Day that Matthew had
made a mistake, that he should not have pleaded guilty, and he only did it to protect his
mother from arrest and prosecution by the Government. I told Ms. Day that Matthew
should change his plea back to not guilty, and asked her if it was possible. I told her that
Norena and I were willing to face charges the Government cared to bring against us. Ms.
Day told us it was too late, that the plea could not be changed back once it was given in
open Court. She told us that the Government had solid evidence against us for aiding and
abetting Matthew, and that we would not only be arrested, but we would be sent to prison
for years.
8. Ms. Day and I had another conversation which occurred prior to Matthew pleading
guilty, which concerned a video recording the Government was alleging that Matthew had
produced. Matthew had told me that he never produced this alleged video and that the
2of4

EXHIBIT "B"

Case 3:15-cv-00020-JPG Document 1 Filed 01/08/15 Page 23 of 46 Page ID #23

forensic examination of this telephone would prove this. Matthew had told me that he
asked Ms. Day several times to show him the video and the forensic report on his cell phone
that the Government had made, but Ms. Day would only tell him that the Government had
not turned it over yet, but she assured Matthew that the Government had the video and
proof that it was made on his cell phone. Matthew asked me to contact Ms. Day and try to
find out what I could about it. When I spoke with Ms. Day, she informed me that she did
not have a copy of a video or the forensic report, but she was certain the Government had
them, and she should be receiving them soon, and would let me know when she had them.
She never contacted me about a video or forensic report after that.
9. I had many conversations with Matthew about what he should do, and he was
adamant about going to trial. We never had serious conversation about a plea bargain until
after Ms. Day began telling Matthew that if he did not plead guilty, his mother and I would
be arrested and prosecuted for aiding and abetting him during the time he was a fugitive. I
am absolutely certain had these threats not occurred Matthew would have gone to trial.
10. After Matthew had pleaded guilty, we had conversation about withdrawing his guilty
plea. He told me he asked Ms. Day about it on the same day (August 5,2013), and
immediately after he pleaded guilty. I told Matthew that was strange, because I had also
asked her about it. Matthew told me that Ms. Day said a guilty plea cannot be changed
after it is stated in an open court, and I told Matthew that was exactly what she had said to
me. About a month after that Matthew told me that the video issue and the forensic report
had really been bothering him, and that he asked Ms. Day to show him the discovery in its
entirety the Government had turned over in his case. Matthew told me Ms. Day kept
putting him off, but after Matthew had persisted, she sent Gail Jones to the jail with it.
Apparently Ms. Jones did not bring the video or forensic report with her and Matthew
insisted that she bring it to him, which she never did. After Matthew complained about
this, according to Matthew, Jared Martin from that point on visited him at jail and told
Matthew there was no video that there never had been a video and that the Government
never provided a forensic report which would have proven Matthew’s cell phone was never
used to make a video. Matthew told me that he had decided to withdraw his plea, and that
he had told Jared Martin to tell Ms. Day about his decision. Matthew later told me that
Ms. Day had again told him that he could not withdraw his plea that it would only make
the judge mad, and he would end up with a longer sentence and that Norena would end up
in jail. Around this time frame is when I had again questioned Ms. Day about the alleged
video since I had not ever received her response. I started off explaining to Ms. Day that I
was not some sick person that wanted to see pornography and told her I could understand
why she could not show this video to me and that since she could not show it she could
answer a simple yes or no answer to my question. I asked Ms. Day in statement is there
any type of pornography of either Matthew and/or this girl individually and/or together. By
any means electronic, digital, video or print. Ms. Day responded no there is not I have very
strong reason to believe up to this day no one has actually ever seen this video, and I

3 of 4

EXHIBIT ”Bn

Case 3:15-cv-00020-JPG Document 1 Filed 01/08/15 Page 24 of 46 Page ID #24

strongly believe that the prosecutor and Matthew’s defense attorney were lying about
having a video and that I never believed of its existence.
11. The statements contained in this Affidavit are comprised of recounts of events made
to me by Matthew L. Staszak, and statements made to me by Melissa Day. The statements
relayed to me directly from Melissa Day can be summarized as follows: (1) that if Matthew
had not pleaded guilty, Norena and I would have been arrested and prosecuted; (2) that the
government was in possession of solid evidence that Norena and 1, and others, had aided
and abetted Matthew while he was a fugitive; (3) that the government was in possession of
a sexually explicit video that had been produced on Matthew’s cell phone and a forensic
report proving this; and (4) that a guilty plea cannot be changed once it is made in a open
court.

SWORN TO ON THIS

ai

DAY OF

. 2014.

Daniel L. Staszak

NOTARY PUBLIC
-*•

County of Williamson )
) ss:
)
State of Illinois

*
<
i

-■

OFFICIAL SEAL
JERLYNN 0 HALE
Notary Public - State ol Illinois
My Commission Expires Nov 30,2016

I
i

>
r

AV14,
I Certify that Daniel Staszak appeared before me personally and was either known to me or
presented sufficient identification to meand did affix-his signature on this Affidavit in the
space above in my presence on this (yH day of U&&*
2014.

4 of 4

EXHIBIT "B"

i

A-22

Case 3:15-cv-00020-JPG Document 1 Filed 01/08/15 Page 25 of 46 Page ID #25

AFFIDAVIT OF NORENA A STASZAK

I Certify under penalty of perjury that the following is true and correct to die best of my
knowledge.

My name is Noreha A Staszak.

defendant in Case No. 4:12 -cr-40064-JPG.

I am the mother of Matthew L Staszak the
I am submitting this Affidavit in support of

Section 2255 Motion that has been filed by Matthew L Staszak, and swear to all of the
following:

1. During the time Matthew was released on bond, he failed to appear at a scheduled court hearing
and an arrest warrant was issued. When Matthew was apprehended, he was beaten by U.S. Marshal
Clark Meadows. He was handcuffed at die time, on the floor, and offered no resistance. After this
incident, Melissa Day was appointed by the Federal Public Defenders Office to represent Matthew. I
had numerous contacts with her by way of personal meetings and telephone conversations. During all
personal meetings, Daniel Staszak, Matthews Father, was present

2. These meetings were designed to prepare Matthew and Ms. Day for Matthews defense. Matthew
was always insistent on going to trial to defend himself and under no circumstances ever considered a
plea bargain. Whenever Ms. Day was questioned about defense strategies or particulars involving the
case, she was extremely vague and appeared overwhelmed. She usually responded with the same
excuse, that discovery was still ongoing and she could not give any more information other than that

3. While Matthew was temporarily held at Jackson County Jail, his Father and I visited him on
numerous occasions, we also communicated by phone and mall. Matthew stated on several occasions
to Me and his Father, that he was being pressured by Ms. Day, (and later by Phillip Kavanaugh) to plead
guilty to all the charges on the indictment and to accept a plea agreement that would indude a prison
sentence of 25 years. Ms. Day stated to Matthew that the Government had evidence involving myself
and his fattier. The evidence they daimed was we assisted him after his failure to appear in court and
we were being targeted for a charge of aiding and abetting. After Daniel spoke to Ms. Day about these
threats, she informed him that Federal Prosecutors were in possession of sufRdent evidence proving
that I had assisted Matthew after the warrant was issued and Daniel and I would be arrested if he did
not plead guilty.

EXHIBIT "C"

Case 3:15-cv-00020-JPG Document 1 Filed 01/08/15 Page 26 of 46 Page ID #26

4. Obviously Matthew knew that he had not been assisted by his Father and I, but he was conflicted by
the threats and had no desire to involve anyone else in the case against him. His Father told Matthew
that he was not afraid of the alleged evidence and was willing to be arrested if necessary, but Matthew
was extremely concerned for me and worried about the threats and pressure they were applying. At
the time, I was raising Matthews 13 year old brother alone and that was also a big concern for him.
Before Matthew was apprehended, Federal Marshals questioned me and told me if they thought he was
armed, they would kill him on the spot Matthew was worried that the Marshals may react the same
being accompanied by Clark Meadows and might do to us the same as they did to him when they beat
him while he was handcuffed on the floor. We told Matthew that the ultimate decision was his to
make and we would stand by him regardless of the outcome.

S. The next time we had a discussion with Matthew concerning a guilty plea was after he was visited
by Phillip Kavanaugh. He said that Kavanaugh had told him he needed to plead guilty and that he had
absolutely no chance of prevailing at his trial. He also said that Government Prosecutors were already
planning to have him indicted in other jurisdictions in the unlikely event that he did prevail at his trial
and that one of these jurisdictions would be the State of Illinois where he would not survive if he were
sent to an Illinois state prison as a sex offender. Matthew also told us that Kavanaugh assured him
that he would be allowed to assist in the prosecution of Amy Primo, and he would receive a significant
reduction in sentencing for his assistance and that the Federal Public Defenders office would continue to
represent him until he acheived the aforementioned reduction. Kavanaugh also stated that if Matthew
plead guilty, he could guarantee him that the case would end right then and that no one else would ever
face further charges, but if he persisted with his efforts to go to trial, his family and some of his friends
would be at great risk.

6. Matthew explained that when he decided to plead guilty, it was because he could not risk the
consequences that an arrest would have on me. The threat to my safety, the humiliation of strip and
cavity searches, being handcuffed and shackled, the embarassing media reports, the removal from

CTHTRTT "r"

Case 3:15-cv-00020-JPG Document 1 Filed 01/08/15 Page 27 of 46 Page ID #27

family and friends, (and especially from my youngest son), and the other extenuating circumstances
Involved with arrest and prosecution.

7. On August 5th of 2013, the day Matthew plead guilty, Daniel and I met with Melissa Day outside the
courtroom shortly after the proceedings ended. It was approximately 2:30 p.m. and Daniel told Ms.
Day that he thought Matthew had made a mistake and that he should not have plead guilty and he only
did it to protect me from arrest and prosecution. He told Ms. Day that Matthew should change his
plea back to not guilty and asked her if that was possible. He said that he and I were willing to face the
charges the Prosecutors were threatening us with. Ms. Day stated that not only was it too late to
change the plea, but that we would be arrested for aiding and abetting and sent to prison for years.
She said that once a plea is given in open court, it cannot be changed.

8. Ms. Day and Daniel had another conversation prior to Matthew pleading guilty which concerned the
alleged video recording the Prosecutors stated they possessed. Matthew had stated on several
occasions that the video never existed and was very adamant about it from the beginning of the case.
Later, a forensic examination of the phone would prove this. Matthew had stated he asked Ms. Day on
several occasions to produce the video and the forensic report that Prosecutors had made, but, Ms. Day
would only tell him that it had not been turned over yet She assured him that Prosecutors had the
video and proof that is was made on his cellular phone. Matthew asked his father to contact Ms. Day
and try to find out what he could about it. When he spoke to Ms. Day, she informed him that she did
not have a copy of the video and the forensic report but she was certain the Prosecutors had them and
she should be receiving them soon and that she would let him know when she had them. He, nor I,
were ever contacted about the video or the forensic report after that day.

9. We had many conversations with Matthew about what he should do, and from the beginning he
was very adamant about going to trial. The possibility of a plea bargain was never discussed until Ms
Day began telling Matthew that if he did not plead guilty, his Father and I would be arrested and
prosecuted for aiding and abetting. We are 100% certain that if these threats hadn't existed, Matthew
would have had his day in court

10. After Matthew had pled guilty, we had talked about withdrawing his guilty piea. He told me he
asked Ms. Day about it on the same day, (August S, 2013), and immediately after he pled guilty. Daniel
told Matthew that was strange because he had also asked her about it and she responded the same way
she did to him, telling him that once a plea has been given in open court it cannot be changed. About a
month later, Matthew told Daniel that the video daim and forensic report had really been bothering him
and that he asked Ms. Day to show him the discovery in its entirety that the Federal Prosecutors had

KYHTBTT "C"

Case 3:15-cv-00020-JPG

Document 1

Filed 01/08/15

Page 28 of 46

Page ID #28

turned over in the case. Matthew told him that Ms. Day kept putting him off, but after Matthew had
persisted, she sent Gail Jones to show him. Apparently Ms. Jones did not bring the video or forensic
report with her and Matthew had insisted she bring it to him, which she never did.

After Matthew

complained about this, from that point on he was visited by Jared Martin who told him there was no
video, there had never been a video, and that the Prosecutors never provided a forensic report which
would have given proof that his phone was never used to make a video. Matthew told us that he had
decided to withdraw his plea and that he had told Jared Martin to tell Ms. Day about his dedsfon. Later
Matthew told us that Ms. Day had again explained to him that he could not withdraw his plea and that it
would only make the judge mad, he would end up with a longer sentance and that I would also go to jail.
Right about this time Daniel had once again questioned Ms. Day about the video, since he had never
received a response from her before. He explained to her that he wasn't some sick individual that just
wanted to see pornography and that he could understand why she couldn't show the video, but if she
couldn't she should at least be able to answer a simple yes or no question regarding it He asked Ms.
Day if there were any type of pornography of either Matthew, and this girl either together or
individually, in any form, electronic, digital, video or print. Ms. Days response was no, there was not
We have never spoken to anyone who can produce this video, nor do any of us believe in the existence
of it

11.

Matthew believes the Prosecutors were lying about it from the beginning.

The statements contained in this Affidavit are comprised of recounts of events made to me by

Matthew Staszak, and to me made by Melissa Day, and to me by Daniel Staszak.
relayed to me directly from Melissa Day can be summarized as follows:

The statements

(1) that if Matthew had not

pled guilty, Daniel and I would have been arrested and prosecuted; (2) that the Prosecutors were in
possession of solid evidence that Daniel and I, and others, had aided and abetted Matthew after an
arrest warrant was issued for him; (3) that the Prosecutors were in possession of a sexually explicit video
that had been produced on Matthews cellular phone and a forensic report proving this; and (4) that a
guilty plea cannot be changed once it is made in a open court

SWORN TO ON THIS

DAY OF

,2014

0) 6 S) Of
Norena A Staszak

NOTARY PUBLIC

•
i
i
i

OFFICIAL SEAL
JEHLYNN D HALE
Notary Public-State of Illinois
My Commission Expires Nov 30,2016

>
»
»

A-23

Daniel L. Staszak and
Norena A. Staszak
1505 Benton Avenue
Johnston City, Illinois 62951
(618)559-5414
dstasz49@gmail.com
February 5, 2020
RE: PETITIONER MATTHEW LEE STASZAK - CASE NO. 15-CV-00020-JPG (S.D. IL) SECTION
2255 MOTION
The Honorable Brett Kavanaugh
Supreme Court of the United States
1 First Streets N.E.,
Washington, D.C. 20543*0001
LEGAL CORRESPONDENCE
Honorable Justice Kavanaugh:
To introduce ourselves we are Daniel and Norena Staszak the parents of Matthew Lee Staszak.
We come to you in humble respects to provide you and the other judges courtesy copied a summation
of our son Matthew's situation.
Matthew is a former U.S. Navy Assistant Chaplain and a decorated combat veteran of both Iraq
and Afghanistan campaigns with the U.S. Marine Corps. He is currently incarcerated at the Forrest
City, Arkansas, Correctional Complex (Low) facility where he was sentenced by U.S. District Court
Judge J. Phil Gilbert to 240 months imprisonment on February 5, 2014. Since Matthew's incarceration
he has litigated, on his own, pro se, his Section 2255 Motion, and that Motion was filed on January 8,
2015, (over five-years ago).
Since Matthew filed his 2255 an Evidentiary Hearing was finally ordered almost three years later

in November of 2017. This order occurred after the conclusion of a federal lawsuit that went to trial
against the United States that Matthew had filed pro se against the United States/U.S. Marshals.
Matthew's lawsuit alleged he was severely beaten in his face by DUSM Dennis Clark Meadows while
handcuffed, on the ground, unarmed with no weapons, and offering no resistance. Matthew was
hospitalized from the incident. Both of us, and Matthew, were just happy that an Evidentiary Hearing
was finally ordered just days after the lawsuit and that he could finally begin to proceed forward
towards his freedom. But, moving forward has proven to be a deliberately slow-moving process for
him every step of the way. (See Docket 3:15-cv-00020-JPG for an abundance of Government
Extensions of Time).

We along with dozens of others attended the five day Evidentiary hearing process on Matthew’s
behalf. On the prosecution side of the room was bare-bones with no one in attendance to support the
Government, (other than Matthew’s former lawyer the Government's advocate in waiting, a detective
Mark Krug and the prosecutors Kit Morrissey and Angela Scott).
On the first day of the Evidentiary hearing the courtroom was standing-room only in support of
Matthew. Additionally, chairs for seating had to be brought into the courtroom by the Marshals to
accommodate the seating, and there still was not enough seating. Matthew is highly supported in his
Section 2255 cause throughout most of our community throughout Southern Illinois and even
throughout the United States. Upstanding, respected, and hardworking individuals support our son 100
percent and attended his proceedings.
After a total of five-days of Kit Morrissey doing everything other than to promote any definition
of true and honorable justice towards the case by her continued ridiculous and even vicious attempts to
bring forthridicule, degradation, mockery humiliation and embarrassment upon our son, the
Evidentiary hearings did finally conclude on April 25,2018. While in the courtroom we both, as well
as Matthew, and his Attorney Terry M. Green, specifically heard Judge Gilbert state in a clear tone of
voice from the bench that he would start going over the cases.
In a spectacle of events, after the hearing, Matthew was immediately transferred from the
Williamson County Jail, in Marion, Illinois, by the Marshal Service, and was not able to neither see nor
speak to his Attorney because of this, where they had a scheduled visit. This obviously was a
maneuver that the Government decided needed to be executed to keep Matthew at length from his
Attorney because of the obvious outcome from the previous proceedings and the continued egregious
conduct by the Government against Matthew.
However, to the day of this letter, our son remains in federal custody and Judge Gilbert has not
ruled on the merits of his case. We find there is something extremely wrong with this. We also find
that the violations of our son's Attorney-Client Privileges on November 30,2018, by a Federal Bureau
of Prisons employee, Darlene Gallardo, to a complete disgrace upon the legal system and just another
attempt to divert, hinder and obstruct any justice for our son. (See ongoing lawsuit of Staszak v. USA.
Darlene Gallardo, 2:19-cv-00052-KGB-PSH, E.D. AR).
We have complete access to public records, and we clearly see the ongoing adjudications and
other events performed all the time by Judge Gilbert and the other Judges in the Southern District of
Illinois by our review of these records. Matthew's 2255, since April 25,2018, remains without a ruling
on the case. Again, his Habeas Corpus 2255 has been docketed for over five-years. Still yet, Matthew
remains confined having a very strong case soaked through-and-through with crystal dear meritorious
issues. Although we are not "lawyers", we see for ourselves what is happening and for what it is. We
. know tiiis is not right. Matthew has a right to have his case ruled on in a timely manner as he has
shown within his Writ of Mandamus. We continue on a daily basis asking ourselves, why in the world
is our son being denied this right?
Now, we both understand Matthew's case is very lengthy totaling over 130-documents and
closing in on 2000-pages; that the Assistant U.S. Attomey/Prosecutor Kit R. Morrissey is most likely
on edge and worried of losing her license to practice law; and, of the further exposure of misconduct,
corruption, and fraudulent activities by officials within the U.S. Attorneys Office, Federal Public
Defender’s Office, and the Federal Bureau of Investigation, specifically, a Det. Mark A. Krug of the
Collinsville, Illinois, police department. We further understand that the mother of K.G., Amy Lynne

Priino, whom now resides in the Southern District of Georgia has not been prosecuted for her crimes as
requested by Judge Gilbert at Matthew's sentencing on February 5,2014. Once again, we ask ourselves
daily, what is really going on here? As Judge Gilbert on day one of the Evidentiary Hearing
Stated: what are we trying to hide here, Mr. Green? Well, we now ask ourselves the same exact
question everyday. What is it that is being attempted to be hidden in this case?
Matthew filed his Writ of Mandamus because he simply had no other choice. The Seventh
Circuit did not issue the Mandamus and used the word "might" in its Order denying the Mandamus.
The Supreme Court actually showed Matthew a little hope and ordered show cause, but a wavier Was
filed by the Solicitor General from showing cause. Other individuals have thoroughly read and
examined Matthew's Mandamus to include attorneys. Matthew's Mandamus, in so many words, for a
pro se litigant, using a prison typewriter, was deemed spectacular and straight to the point by numerous
people.
In essence, we ask the following three questions:
1. Why is our son Matthew Staszak being denied his Constitutional right to Due Process of Law
with no ruling and/or adjudication by Judge Gilbert within his Section 2255 cause, after the Judge
openly announced he would begin going Over the cases since April 25,2018, and it is now February
2020?
2. Why does our son Matthew Staszak remain incarcerated on a case that reeks of merit where
he was left with no other choice but to file a Writ of Mandamus, (since he is no longer alJowed-to file
anything pro se to the District Court and Ms appointed attorney will not file anything neither)?
3. As Judge Gilbert stated himself, Matthew was sentenced into a vacuum on February 5,2014.
The record dearly shows of abundant levels Of egregious misconduct by the Assistant U.S. Attorneys
Kit R. Morrissey and Angela Scott, whom both used FPD Melissa A. Day and CFPD Phillip J,
Kavanaugh as conduits and as their advocates instead of Matthew's advocate, in order to coerce and
threaten our son into a state of duress where he decided to plead guilty by means of threats of arrest and
prosecution against us, his parents, and was told to "stay on track" at the Plea Hearing, Why?
I, Daniel L. Staszak, 33-years Honorably retired U.S. Army, and I, Norena A. Staszak, retired as
Manager of Wal-Mart Stores, both parents of Matthew Lee Staszak, as honorable members of the
surrounding community and as credible witnesses at the Evidentiary proceedings on behalf of our son
Matthew Lee Staszak personally thank-you for the assistance in this matter and the needed answers to
our three important questions, our final request is not one out-of-the-ordinary:
I, Daniel L. Staszak, and I, Norena A. Staszak, as friends of the Court, and the direct blood
relation as the parents of Matthew Lee Staszak, request that Judge Gilbert or a Circuit Judge from the
panel of the Seventh Circuit, or a Supreme Court Justice provide an immediate ruling on the Section
2255 Motion filed by our son Matthew Lee Staszak on January 8,2015. Furthermore, upon receiving
our letter of support in our son’s current legal cause to afford him his request for his Constitutional right
of Due Process be honored and for his well-earned, overdue, and well-deserved dismissal with
prejudice of the Government's Second Superseding Indictment against him and for his immediate
release from the Federal Bureau of Prisons.

God Bless the United States of America, and Respectfully Tours,

Daniel and Norena Staszak
1505 Benton Avenue
Johnston City, Illinois 62951
618 559-5414
dstasz49@gmail.com

cc: Donald J. Trump, President of the United States
Honorable Neil Gorsuch, Supreme Court Justice
Honorable William J. Bauer, Circuit Judge
Honorable Diane S. Sykes, Circuit Judge
Honorable David F. Hamilton, Circuit Judge
Honorable J. Phil Gilbert, Senior District Court Judge
Honorable Nancy J.Rosenstengel Chief District Court Judge
Attorney Terry M. Green
Mike Bost, Congressman 12th District of Illinois
William Barr, United States Attorney General
Steven D. Wemhoeft, United States Attorney for the Southern District of Illinois
Stephen R. Welby, Chief Federal Public Defender for the Southern District of Illinois
Matthew L. Staszak Legal File
Ref: Case No. 19-2367, (7th Cir.), Writ of Mandamus
Case No. 19-6121, Supreme Court, Writ of Mandamus
Case No. 3:15-cv-00020-JPG, Section 2255 Motion
Case No. 2:19-cv-00052-KGB-PSH, Lawsuit against United States of America and Darlene
Gallardo

A-24

TJ.S. NAVAL CRIMINAL INVESTIGATIVE SERVICE
INVESTIGATIVE ACTION

O7J0N12
CONTROL:

30MAY12-CAPI-0032-8BNA

S/STASZAK, MATTHEW LEE/RP2 OSN
M/W/NEE5/S/343-74-3451/15DEC82/CARBONDALE, IL
DOSTA: BASE CHAPEL, MCAS BEAUFORT, SC
RESULTS OF MEDICAL RECORD REVIEW OF S/STASZAK
1. On 07JON12, Reporting Agent (RA) conducted a medical record review
for RP2 Matthew Lee STASZAK (S/STASZAK), OSN, Base Chapel, Headquarters
and Headquarters Squadron (H&HS), Marine Corps Air Station (MCAS)
Beaufort, SC at the MCAS Branch Medical Clinic (BMC).
2. For background, Special Federal Officer (SFO) Mark KRUG, Federal
Bureau of Investigation (FBI), requested assistance in determining
whether or not S/STASZAK has ever had or received treatment for the
sexually transmitted disease (STD) Chlamydia. V/GflU reported
contracting Chlamydia from another boyfr^nd, and then inadvertently
transferring the STD to S/STASZAK. V/gH| reported that S/STASZAK
claimed he had contracted the STD, but received no formal treatment as
S/STASZAK claimed to have stolen the appropriate medications for its
treatment.
3. RA contacted the BMC Medical Records department and conducted a
review of S/STASZAK's treatment history, previous laboratory results,
and prescribed medications. There was no information located within
S/STASZAK's prior five years of medical history that indicated he had
ever suffered from or received treatment for any STD.
REPORTED BY:
OFFICE:

Kelly J. Parrish, Special Agent
NCISRA Parris Island, SC

FOR OFFICIAL USE Ol
PAGE

1 LAST

JRt

P

V2 Lh!Y
WARNING

I

SERVICE
i i

